Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2004 - March 31, 2005
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.


CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

PROCUREMENT               Simplified processes have reduced order and delivery           2 – 4,
ACTIVITIES                time, yet competitive principles are not always followed      14 – 18
                          and opportunities may be missed for less costly services
                          and products.

CONTRACT                  GSA’s multibillion dollar acquisition programs have            4 –6
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially          6 –7
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          7 – 11
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed.

PROTECTION OF             GSA is responsible for protecting the life and safety         11 – 13
FEDERAL FACILITIES        of employees and public visitors in Federal buildings.
AND PERSONNEL             A broadly integrated security program is required.

AGING FEDERAL             GSA is being challenged to provide quality space to           No
BUILDINGS                 Federal agencies using an aging, deteriorating inventory      Reports
                          of buildings and facing critical budgetary limitations in     This
                          its modernization program.                                    Period

HUMAN CAPITAL             GSA’s corporate knowledge is eroding and efforts to           No
                          obtain requisite skills for the future are impeded. Better    Reports
                          recruitment and training programs are needed to               This
                          develop the 21st century workforce.                           Period
              Foreword



This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG) for
the six-month reporting period that ended March 31, 2005.

During the past six months, we continued to work with GSA to identify business
management and operational improvements in the Agency’s programs and
activities. We issued reports focusing on the major challenges facing the
Agency, particularly in the areas of procurement, contract management,
information technology, management controls, and the protection of Federal
facilities and personnel. We completed audit work requested by Administrator
Perry, who asked us to conduct a nationwide review to determine the nature and
breadth of procurement deficiencies within the multibillion dollar Federal
Technology Service (FTS) Client Support Center (CSC) contracting program.
Our review of 332 task orders valued at $4.6 billion awarded by the
11 CSCs documented widespread weaknesses; however, there was also
substantial evidence that GSA senior management’s corrective measures were
beginning to take hold. In cooperation with the Department of Defense (DoD)
Office of Inspector General, we are conducting additional audit work designed to
test the effectiveness of both GSA and DoD procurement improvements,
including the joint “Get it Right” initiative, and respond to Congressional
concerns regarding the CSCs’ compliance with the Federal Acquisition
Regulation and Defense procurement requirements. We plan to issue our final
reports on this additional audit work by June 2005.

This period, we identified over $392 million in financial recommendations on how
funds could be put to better use. We achieved over $35 million in management
decisions agreeing with audit recommendations, civil settlements, and direct
recoveries. We made 310 referrals for criminal prosecution, civil litigation, and
administrative action. Criminal cases originating from OIG referrals resulted in
20 successful prosecutions.

I would like to add a personal note. This will be the last Semiannual Report I
submit as GSA’s Inspector General, as I now prepare to be appointed Inspector
General of the Department of Health and Human Services. Since my arrival at
GSA four years ago, I have visited every one of our office locations, and have
personally met nearly every member of our staff to discuss office projects and
operations. I can therefore say not only from the work product that reaches my
desk, but also from direct personal experience, that it has been a high privilege
and extraordinary honor to lead such a dedicated and productive team of
professional public servants. I leave this office with a sense of gratitude for
having had the opportunity to know and work with such a fine group of people,
and with a renewed sense of how much our Federal Inspector General
community continues to accomplish on behalf of the Nation.


Daniel R. Levinson
Inspector General
April 29, 2005
          Table of Contents



                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .11

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .14

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .23

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .25

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .27

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .35

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .38

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .60

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .62

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .63

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                         Office of Inspector General iii
                      Summary of OIG Performance



OIG Accomplishments    October 1, 2004 – March 31, 2005

                       Total financial recommendations                               $393,448,641

                       These include:

                       • Recommendations that funds be put to better use              $392,872,817

                       • Questioned costs                                               $575,824

                       Audit reports issued                                                 98

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                               310

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                     $35,904,476

                       Indictments and informations on criminal referrals                   40

                       Cases accepted for criminal prosecution                              25

                       Cases accepted for civil action                                       5

                       Successful criminal prosecutions                                     20

                       Civil settlements                                                     2

                       Contractors/individuals debarred                                     24

                       Contractors/individuals suspended                                    16

                       Employee actions taken on administrative referrals
                       involving GSA employees                                              16




                                                                            Office of Inspector General v
                             Executive Summary



                        During this period, the OIG continued to direct its audit, investigative, and
                        evaluative resources to address what we believe to be the major
                        management challenges facing the Agency. We provided a wide variety of
                        services, including program and financial audits; management control
                        assessments; contract reviews; and investigative coverage and litigation
                        support in civil fraud and enforcement actions, criminal prosecutions,
                        contract claims, and administrative actions. We also continued to provide
                        professional assistance services and reviews of proposed legislation and
                        regulations.

                        Management Challenges
                        We have highlighted a number of reviews that address major management
                        issues facing GSA. We continued our work in addressing these challenges,
                        making recommendations, and working with management to improve
                        Agency operations. During this period, our efforts included work focusing on
                        procurement activities, contract management, information technology (IT),
                        management controls, and the protection of Federal facilities and personnel.
                        While we did not issue any reports this period on the two other challenges —
                        aging Federal buildings and human capital — we have reviews in process
                        that will be completed in FY 2005.

                        Procurement Activities
                        In previous semiannual reports, we highlighted problems of inappropriate
                        contracting practices at the Federal Technology Service’s (FTS) Client
                        Support Centers (CSC), identifying numerous improper task orders and
                        contract awards in three GSA regions. As a result of our work, the
                        Administrator and FTS Commissioner undertook a number of corrective
                        actions, including the “Get it Right” initiative, launched in conjunction with
                        DoD’s Director of Defense Procurement and Acquisition Policy. This
                        initiative was designed to ensure the proper use of contract vehicles and
                        services and to ensure that clients and taxpayers receive the best value, and
   Improper FTS         includes educating and training acquisition employees, aligning performance
contracting practices   measures, publishing new contracting regulations and procedures, and
                        validating the proper use of GSA contract vehicles and services. During this
                        period we completed audit work requested by Administrator Perry, who
                        asked us to conduct a nationwide review to determine the nature and
                        breadth of procurement deficiencies within the multibillion dollar FTS CSC
                        contracting program. The Chairman of the Senate Finance Committee had
                        also requested that we provide continuing oversight of CSC operations to
                        ensure that deficiencies are appropriately addressed. Our review of
                        332 task orders valued at $4.6 billion awarded by the 11 CSCs documented
                        that there were widespread weaknesses, such as inadequate competition,
                        lack of support for fair and reasonable pricing, improper task order
                        modifications, and unjustified time-and-materials contracts. However, there
                        was also substantial evidence that senior GSA management’s corrective
                        measures were beginning to take hold. We issued individual audit reports
                        on CSC contracting practices in each of GSA’s 11 regions and summarized


                                                                           Office of Inspector General vii
                                              Executive Summary



                                         and presented them in our “Compendium of Audits of the Federal
                                         Technology Service Regional Client Support Centers,” dated December 14,
                                         2004. In cooperation with the Department of Defense (DoD) Office of
                                         Inspector General, we are conducting additional audit work designed to test
                                         the effectiveness of both GSA and DoD procurement improvements,
                                         including the joint “Get it Right” initiative, and respond to Congressional
                                         concerns regarding the CSCs’ compliance with the Federal Acquisition
                                         Regulation (FAR) and Defense procurement requirements. In these
                                         additional reviews, we are conducting comprehensive testing of
                                         management controls throughout the CSC program by reviewing 182 task
                                         orders valued at $2 billion, including a random sample of new orders and a
                                         judgmental sample of modifications to existing orders. We plan to issue our
                                         final reports on this additional audit work by June 2005 (page 2).

                                         We reviewed procurement practices for acquiring IT support services for the
                                         Public Buildings Service (PBS) in the National Capital Region. The scope of
      Acquisition of IT                  our review consisted of twelve task orders valued at $23.1 million. We found
      support services                   an overreliance on the use of time-and-materials type task orders to acquire
                                         IT services. In addition, we noted that dependency on a single vendor
                                         creates a definite incumbent bias, compromising the integrity of the
                                         procurement process (page 4).

                                         Contract Management
                                         The OIG received a complaint regarding contract administration in the
                                         Potomac Service Center, which handles tenant agency space needs in the
                                         National Capital Region. Our review centered on a task order for anthrax
                                         remediation services awarded to a vendor under its Federal Supply Service
                                         Multiple Award Schedule contract. The initial task order issued in May 2002
         Emergency                       was valued at over $900,000 and was to expire in July 2002; however, as of
     procurement action                  February 2005, GSA had paid the vendor $3.7 million on this task order.
                                         While the need for anthrax remediation clearly met the FAR criteria for
                                         unusual and compelling urgency, essential procurement requirements were
                                         either unmet under this task order or not documented in the contract files.
                                         Additionally, as a lesson learned, our review notes that the vendor’s
                                         schedule contract was not the optimal contract type for ordering emergency
                                         services in an evolving situation. Given the potential for similar future
                                         emergency procurements, we recommended that the Agency task a team of
                                         program experts and procurement officials to create a template emergency
                                         acquisition plan (page 5).

                                         Information Technology
                                         In our last semiannual report, we reported on our review of GSA’s IT
                                         Security Program under the Federal Information Security Management Act
    IT Security Program                  (FISMA). FISMA requires Federal agencies to develop, document, and
                                         implement an agency-wide IT Security Program to manage risks with its




viii Semiannual Report to the Congress
                               Executive Summary



                          computer systems. Overall, we found that GSA continues to strengthen its
                          IT Security Program; however, some security weaknesses still persist. Our
                          FISMA audit assessed GSA’s IT Security Program based in part on how well
                          established controls have been implemented for nine select systems across
                          the Agency. This period, we issued nine restricted audit reports conveying
                          sensitive security control weaknesses to management including detailed
                          results of vulnerability scanning completed for each of the systems (page 6).

                          The System for Tracking and Administering Real Property (STAR) provides
                          PBS a means to track and manage the government’s real property assets.
                          Our review assessed how well the STAR system was meeting management
                          and user requirements and the effectiveness of the system’s security
                          controls. We found that recent organizational, business, and system
     STAR system          changes have challenged PBS’ ability to manage STAR in a manner
                          consistent with the Agency’s enterprise architecture goals for information
                          technology. While PBS has taken steps to improve the collection and
                          reporting of performance measures with the STAR business case, additional
                          steps are needed to establish and achieve system-specific goals and
                          measures aimed at ensuring long-term success for the system. In addition,
                          we highlighted the importance of improving system security controls for
                          STAR and developing a more comprehensive approach to monitoring risks
                          with the system. We recommended that the PBS Commissioner work with
                          the PBS Chief Information Officer to ensure that STAR provides: necessary
                          business line management information through system enhancements;
                          system-specific performance measures for identifying and monitoring
                          progress with meeting established goals and system requirements; a
                          complete system data dictionary designed to capture the comprehensive
                          nature of information in STAR; and adequate security controls (page 6).

                          Management Controls
                          In recent years, concerns have been raised regarding cost overruns in PBS’
                          construction program. In a management control review of construction
                          prospectus funding controls, we found that PBS increased funding for five
Construction prospectus   out of the six projects in our sample and reprogrammed funds for all of the
        funding           projects. While management controls were effective in ensuring project
                          costs did not exceed appropriations, cost overruns on the projects averaged
                          more than 14 percent. PBS’ new policy requiring regional offices to obligate
                          up to 25 percent of their repair and alteration budgets as a first source for
                          additional funds could have a major adverse impact on the repair and
                          alteration program. Also, the reprogramming of funds from the repair and
                          alteration and building operations accounts is reducing the funds available to
                          meet the needs of these intended programs. Finally, we found that the
                          Treasury Judgment Fund used for paying court judgments and settlement
                          agreements may be absorbing some project-related costs. GSA has
                          implemented initiatives to establish a more rigorous project management
                          business process (page 8).




                                                                             Office of Inspector General ix
                                           Executive Summary



                                      The GSA Travel Charge Card is a convenient method for Federal agencies
                                      and their employees to make payments for official government travel and
                                      travel-related expenses. GSA awarded its contract task order to Citibank.
                                      There are two types of accounts available under the contracts — individually
    Travel Charge Card
                                      billed and centrally billed. Our integrated audit approach focused on the
                                      controls over both the systems and the management of GSA’s Centrally
                                      Billed Travel Charge Card Account (CBA) to ensure charges and related
                                      payments are for authorized travel only. Our limited review of transactions
                                      charged to the CBA did not disclose any significant irregularities in its use.
                                      However, we did identify areas for strengthening the control environment
                                      (page 8).

                                      PBS has about 20,000 rent accounts for over 100 Federal agencies across
                                      the United States. The rent rate charged to the tenant agencies must
                                      approximate commercial charges for comparable space and services. Our
                                      audit focused on determining if the current pricing methodology is
                                      implemented consistently and in accordance with PBS’ rent pricing policy as
                                      it relates to the basic pricing structure. Our review of the pricing method
         Rent pricing                 noted some areas where improvements could be made to strengthen the
                                      integrity of the rent data and increase the accuracy of billing information.
                                      We found varying degrees of support for changes to the shell rate in
                                      government-owned buildings. In addition, we found that PBS is not always
                                      recovering costs for improvements in leased space and, in some cases, not
                                      documenting its rationale for business decisions to not recover funds for
                                      other improvements. Furthermore, PBS’ resolution of customer questions
                                      and customer satisfaction could be improved through more detailed
                                      information in the property files, rent bills, and STAR (page 9).

                                      Protection of Federal Facilities and Personnel
                                      At the direction of OMB, GSA was asked to take the lead for adopting smart
                                      card technology within the Federal Government, to enable all employees to
                                      use one card for a wide range of purposes, including travel, small
                                      purchases, and building access. Our review to determine whether PBS is
                                      effectively implementing a smart card credential program for secure physical
                                      access to facilities managed by GSA revealed that PBS’ effectiveness has
                                      been mixed. PBS issued a uniform smart card credential; however,
   Smart card technology              implementation is hindered by the lack of a vision for incorporating the smart
                                      card credential as a component of agency-wide security. Also, responsibility
                                      for aspects of personal identification verification and building security is
                                      divided within the Agency. In addition, unless the building has a card reader,
                                      the smart card will simply function as a picture identification. As a result,
                                      inconsistent controls and the lack of a supporting infrastructure inhibit smart
                                      card credentials from delivering the convenient, yet secure, building access
                                      that the technology is capable of providing. Other aspects of the smart card
                                      initiative such as integrated security practices, interoperability, and
                                      procurement issues are also problematic (page 11).




x Semiannual Report to the Congress
                  Executive Summary



             The Office of Emergency Management is responsible for ensuring that GSA
             has an effective program to continue to perform essential functions during
             and after an emergency. Within GSA, there are 26 individual continuity of
             operations (COOP) plans that represent each service, staff office, and
             region. Our audit focused on the regional plans, examining whether each
COOP plans   region has designed a program that will allow the Agency to be prepared for,
             respond to, and recover from disasters. We found that the GSA regional
             offices have developed plans that are in compliance with Federal Emergency
             Management Agency guidance. However, some regions’ plans showed a
             need for more complete identification of essential functions and the
             information systems that support those functions. We also found that the
             testing necessary to validate COOP effectiveness was inconsistently
             administered from region to region (page 12).

             Promoting and Protecting Integrity
             In our ongoing efforts to promote and protect the integrity of GSA’s programs
             and operations, we aggressively conduct investigations and pursue the
             prosecution of individuals and companies committing criminal and civil fraud
             and other offenses that impact GSA programs. A number of these
             investigations have led to enforcement actions during this semiannual
             period, including:

             • The last of 16 individuals convicted for their involvement in a construction
               contractor kickback scheme was sentenced to three years probation with
               200 hours of community service per year and ordered to pay restitution of
               $100,000 for accepting bribes from a GSA contractor (page 14).

             • Our investigation determined that an individual had used her positions as
               Director of the Nebraska State Agency for Surplus Property and as Fund
               Administrator for the National Association of State Agencies for Surplus
               Property to embezzle money to fund a personal gambling problem. She
               resigned from both positions and was sentenced to one year plus one day
               in prison, three years probation, and ordered to pay restitution in the
               amount of $456,220 (page 14).

             • A contract specialist with Unlimited Security Incorporated, a guard service,
               pled guilty to submitting false statements to the government. He was
               sentenced to three years probation and ordered to pay a fine of $3,000
               (page 15).

             • A GSA employee pled guilty to possession of child pornography. He
               resigned from his position, was sentenced to 70 months incarceration
               followed by three years supervised release, and ordered to pay a
               $2,500 fine (page 15).

             • A joint investigation disclosed that a GSA contract guard (with assistance
               from his spouse) was impersonating an Immigration and Naturalization



                                                                Office of Inspector General xi
                                             Executive Summary



                                          Service official to extort money from individuals who were seeking legal
                                          immigration documents. The guard was found guilty of impersonating a
                                          Federal officer and is currently awaiting sentencing. His spouse pled
                                          guilty to conspiracy and impersonating a Federal officer; she was
                                          sentenced to 24 months in prison, two years supervisory release, and
                                          ordered to pay $52,000 in restitution (page 15).

                                        • A joint task force investigation found that a group of individuals used
                                          stolen government fleet charge cards and private sector fraudulent credit
                                          cards to steal fuel and resell it on the black market. The investigation led
                                          to the arrest of 46 individuals and the seizure of 44 vehicles, including two
                                          fuel tankers in the Miami, Florida area. Charges against these individuals
                                          included money laundering, fraud, theft, and unlawful transportation of fuel
                                          (page 15).

                                        • Two additional fleet card abuse cases resulted in the sentencing of five
                                          individuals, with restitution totaling over $43,000 (page 16).

                                        Summary of Results
                                        The OIG made over $392 million in financial recommendations to better use
                                        government funds; made 310 referrals for criminal prosecution, civil litigation,
                                        and administrative actions; reviewed 108 legislative and regulatory actions;
                                        and received 1,097 Hotline contacts. This period, we achieved savings from
                                        management decisions on financial recommendations, civil settlements, and
                                        investigative recoveries totaling over $35 million. (See page v for a
                                        summary of this period’s performance.)




xii Semiannual Report to the Congress
                                        OIG Organization Chart



                                            Inspector General
                                            Daniel R. Levinson       Office of Internal Evaluation
     Office of Counsel to the IG
          Kathleen S. Tighe                                               James A. Amoroso
          Counsel to the IG              Deputy Inspector General               Director
                                              Joel S. Gallay



 Office of Administration                      Office of Audits             Office of Investigations
     John C. Lebo, Jr.                        Eugene L. Waszily              James E. Henderson
  AIG for Administration                       AIG for Auditing              AIG for Investigations

        Human                                     Audit                            Field Support
       Resources                               Operations &
        Division                               Administration
                                                                                   Zone Offices
                                                                                 Washington, D.C.
       Information                               Information                        New York
       Technology                                Technology                         Chicago
         Division                                Audit Office                      Fort Worth
                                                                                  San Francisco

     Administrative                                 Real
      & Financial                                 Property                              Sub-Offices
     Management                                  Audit Office                           Philadelphia
       Division                                                                           Boston
                                               Finance & Staff                          Kansas City
                                                                                          Atlanta
                                                   Offices
                                                                                        Auburn (WA)
                                                 Audit Office

                                                 Acquisition
                                                 Audit Office

                                                 Field Audit
                                                   Offices
                                               Washington, D.C.
                                                   Boston
                                                  New York
                                                 Philadelphia
                                                   Atlanta
                                                   Chicago
                                                 Kansas City
                                                  Fort Worth
                                                San Francisco


                                                       Sub-Office
                                                       Auburn (WA)




xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and analysts
                        who provide comprehensive coverage of GSA operations through program
                        performance reviews, assessment of management controls, and financial
                        and compliance audits. The office also conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office additionally
                        provides research, benchmarking, and other services to assist Agency
                        managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper activities
                        involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review and Congressional liaison functions.

                      • The Office of Internal Evaluation, a quality control staff that provides
                        coverage of OIG operations primarily through management assessments
                        and conducts internal investigations and reviews at the direction of the
                        Inspector General.

                      • The Office of Administration, a professional staff which provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, D.C. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of March 31, 2005, our on-board strength was 278 employees. The
                      OIG’s Fiscal Year (FY) 2005 budget is $46.4 million.




                                                                         Office of Inspector General 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Procurement Activities
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      FTS Contracting Practices and Agency Improvement Actions
                                      In previous semiannual reports, we highlighted audits of inappropriate
                                      contracting practices at the Federal Technology Service’s (FTS) Client
                                      Support Centers (CSCs). CSCs help customer agencies define their
                                      information technology (IT) requirements, identify sources of products or
                                      services, prepare contract task orders, and assist in managing projects,
                                      depending upon the level of support needed by the customer. In FY 2004,
    Prior FTS audits                  CSC procurements exceeded $5.4 billion, with Department of Defense
                                      (DoD) customers representing about 85 percent of the business. Our prior
  revealed significant
                                      audits identified numerous improper task order and contract awards in three
     procurement                      GSA regions, including improper sole-source awards, misuse of small
     irregularities.                  business contracts, allowing work outside the contract scope, improper order
                                      modifications, frequent inappropriate use of time-and-materials task orders,
                                      and not enforcing contract provisions. In our January 2004 report, we
                                      recommended that FTS: 1) perform a detailed analysis of the factors
                                      contributing to the problems identified, including an ineffective system of
                                      internal controls; 2) based on this analysis, determine what changes are
                                      needed in the structure, operations, and mission of the CSCs; and
                                      3) develop additional performance measures that promote competition and
                                      other sound procurement practices.

                                      The FTS Commissioner concurred with our report recommendations and in
                                      a series of policy letters, memoranda, and other guidance initiated a number
  GSA has initiated a                 of improvement actions, including ensuring that the contracting officer
     number of                        receives at least three bids for orders exceeding $100,000; requiring legal
    improvement                       counsel review for all task orders exceeding $5 million; using acquisition
                                      checklists to ensure all appropriate steps in the procurement process are
      actions.                        completed; and developing a management plan for each CSC that provides
                                      for performing self-assessments of CSC operations and task orders to
                                      ensure controls are in place.

                                      Further, in July 2004, the Administrator, in conjunction with DoD’s Director of
                                      Defense Procurement and Acquisition Policy, launched the “Get it Right”
                                      initiative to ensure proper contracting practices, and that clients and
                                      taxpayers receive the best value. This initiative includes educating and


2 Semiannual Report to the Congress
                     Management Challenges



                    Procurement Activities (continued)

                    training acquisition employees, aligning performance measures, publishing
                    new contracting regulations and procedures, and validating the proper use of
                    GSA contract vehicles and services.

                      •FY 2004 Audit of FTS CSC Contract Practices. During this period we
                      completed audit work requested by Administrator Perry, who asked us to
                      conduct a nationwide review to determine the nature and breadth of
                      procurement deficiencies within the multibillion dollar FTS CSC
                      contracting program. The Chairman of the Senate Finance Committee
                      had also requested that we provide continuing oversight of CSC
                      operations to ensure that deficiencies are appropriately addressed.
 Expanded audits
                      We reviewed 227 task orders valued at $3.2 billion that were awarded by
  find additional     the 11 CSCs in 2003, to determine whether the procurements were
   procurement        conducted in accordance with the Federal Acquisition Regulation (FAR)
 deficiencies but     and the terms and conditions of the contracts utilized. We also analyzed
                      105 task orders valued at $1.4 billion awarded in FY 2004, to review the
 also evidence of     implementation of enhanced management controls. The task orders
improvement due       reviewed were selected as a risk-based judgmental sample of orders
    to recently       exceeding $100,000.

   implemented        Our review of 2003 task orders identified numerous improper contracting
     controls.        practices, such as inadequate competition, lack of support for fair and
                      reasonable pricing, improper task order modifications, and unjustified
                      time-and-materials contracts. Our review of 2004 task orders generally
                      indicated some improvement from recently enhanced management
                      controls put in place in the CSCs, although in some regions we found
                      several of the same issues identified in our review of 2003 procurements.
                      However, we recognize that our review of 2004 task orders was
                      conducted during the time the CSCs were still in the process of
                      implementing enhanced management controls in response to our prior
                      audit findings. We issued individual audit reports on CSC contracting
                      practices in each of GSA’s 11 regions and summarized and presented
                      them in our “Compendium of Audits of the Federal Technology Service
                      Regional Client Support Centers,” dated December 14, 2004.

                      In our January 2004 audit report on three CSCs, we recommended that
                      FTS develop a broad-based improvement strategy that focuses on the
                      structure, operations, and mission of the CSCs as well as the control
                      environment, which the FTS Commissioner concurred with and undertook
                      corrective actions. Based on those comprehensive recommendations, no
                      further overall recommendations were deemed necessary in our audit
                      report this period.

                      •Additional Audits Directed in FY 2005 Legislation. As directed in the
                      Ronald W. Reagan National Defense Authorization Act for FY 2005, we


                                                                      Office of Inspector General 3
                                       Management Challenges



                                        Procurement Activities (continued)

                                        are conducting additional audit work in cooperation with the DoD Office of
                                        Inspector General, designed to test the effectiveness of both GSA and
                                        DoD procurement improvements, including the joint “Get it Right” initiative,
   Joint GSA IG and                     and respond to Congressional concerns regarding the CSCs’ compliance
                                        with the FAR and Defense procurement requirements. In accordance with
   DoD IG testing of                    the Act, we are determining whether each CSC is compliant with
     CSC controls                       procurement regulations, not compliant, or not compliant but making
      underway.                         significant progress. In these additional reviews, we are conducting a
                                        comprehensive testing of management controls throughout the CSC
                                        program by reviewing 182 task orders valued at $2 billion, including a
                                        random sample of new orders and a judgmental sample of modifications
                                        to existing orders. We plan to issue our final reports on this additional
                                        audit work by June 2005.

                                      Acquisition of Regional IT Support Services
                                      We reviewed procurement practices for acquiring IT support services for the
                                      Public Buildings Service (PBS) in the National Capital Region to determine if
                                      the regional practices: 1) comply with the FAR; 2) promote competition;
                                      3) achieve an appropriate balance of performance risk sharing; 4) produce
                                      acceptable contractor performance; 5) guard against personal services
                                      contracts; and 6) support IT risk management.

                                      The scope of our review consisted of twelve task orders valued at
   Dependency on a                    $23.1 million. We found an overreliance on the use of time-and-materials
                                      type task orders to acquire IT services in the region. As a procurement type,
     single vendor                    time-and-materials contracts are not well suited to address the substantial
   compromises the                    and continuing need for large-scale IT service and support and are generally
    integrity of the                  disfavored without proper justification. Secondly, we noted that 10 out of
                                      12 task orders, worth $21.5 million, were issued to one vendor. Dependency
     procurement                      on a single vendor creates a definite incumbent bias, compromising the
        process.                      integrity of the procurement process. Task order statements of work favored
                                      the incumbent, thus limiting competition. PBS has not sought additional
                                      discounts or other means to reduce costs nor has it developed a means to
                                      formally measure the vendor’s performance. The vendor has no incentive to
                                      control costs or increase operational efficiencies. All the risk for successful
                                      completion of the work is borne by PBS.

                                      The Regional Administrator agreed with the substance of our findings and
                                      welcomed our assistance as the region moves forward to address the
                                      findings.

                                      Contract Management
                                      GSA increasingly accomplishes its mission by using contractors to provide
                                      client services and products. Its multibillion dollar acquisition programs have



4 Semiannual Report to the Congress
                      Management Challenges



                     Contract Management (continued)

                     expanded rapidly in terms of size, variety, and complexity of the
                     procurements performed. While many GSA contracts are well crafted and
                     properly administered, we are finding an increasing number of weaknesses.
                     Our audit work in recent years has revealed a growing list of warning signs
                     throughout the acquisition process that suggests the technical and
                     management skills needed by the procurement workforce to operate in this
                     more sophisticated arena are not keeping pace with these new demands.

                     Emergency Procurement Action
                     The OIG received a complaint regarding contract administration in the
                     Potomac Service Center, which handles tenant agency space needs in the
                     National Capital Region. The complaint alleged that: 1) non-authorized
                     procurement actions occurred without the benefit of a contract, task order,
                     scope of work, independent government estimate, or funding; 2) pricing of
                     non-schedule items was not negotiated; 3) the number of procurement staff
                     was insufficient; and 4) management did not support procurement
                     regulations. In response to these allegations, we initiated a review of
                     Potomac Service Center contract administration. Initially, we reviewed
                     seven task orders to assess the allegations, but upon learning that the
                     Agency had undertaken its own internal procurement review and was in the
                     process of taking corrective actions, we refocused our audit efforts toward a
                     more in-depth review of one of the seven task orders.

                     Our review centered on a task order for anthrax remediation services
                     awarded to a vendor under its Federal Supply Service Multiple Award
                     Schedule contract. GSA issued the task order to the vendor to remediate
     Anthrax         the anthrax-contaminated facility that handled the mail for the Executive
                     Office of the President and other government agencies after the remediation
   remediation       effort grew too large for a previous contractor to complete. The task order
provides lessons     issued in May 2002 was valued at over $900,000 and was to expire in July
learned for future   2002. However, work continued into June 2004, and as of February 2005,
                     GSA had paid the vendor $3.7 million on this task order.
    emergency
  procurements.      While the need for anthrax remediation clearly met the FAR criteria for
                     unusual and compelling urgency, essential procurement requirements were
                     either unmet under this task order or not documented in the contract files.
                     Among the deficiencies we noted were payment in excess of task order
                     value; no price reasonableness determination for non-schedule items;
                     payment for work beyond the defined period of performance; undated,
                     multiple revisions to the statement of work; and required documentation
                     absent from contract files. Additionally, as a lesson learned, our review
                     notes that the vendor’s schedule contract was not the optimal contract type
                     for ordering emergency services in an evolving situation.

                     Given the potential for similar future emergency procurements, we
                     recommended that the Agency task a team of program experts and


                                                                        Office of Inspector General 5
                                       Management Challenges



                                      Contract Management (continued)

                                      procurement officials to create a template emergency acquisition plan. Such
                                      emergency planning should consider contract type, funding options,
                                      documentation requirements, project cost management, and vendor cost
                                      reporting responsibilities.

                                      Information Technology
                                      GSA is in the process of replacing a number of its old information systems to
                                      improve performance and take advantage of technological advances. Since
                                      GSA has had difficulty sharing usable data between systems, many of the
                                      new IT projects are intended to go beyond automating current business
                                      functions and to create real change in the way that GSA does business.
                                      However, GSA systems development projects have typically experienced
                                      significant schedule delays and cost overruns, the need for frequent
                                      redesign, and a prolonged period of time in development.

                                      Computer System Security Assessments
                                      In our last semiannual report, we reported on our review of GSA’s IT
                                      Security Program under the Federal Information Security Management Act
                                      (FISMA). FISMA requires Federal agencies to develop, document, and
                                      implement an agency-wide IT Security Program to manage risks with its
                                      computer systems. Overall, we found that GSA continues to strengthen its
   GSA continues to                   IT Security Program, but security weaknesses persist regarding the Agency’s
    strengthen its IT                 systems inventory, contractor background checks, security of contractor-
   Security Program,                  provided system solutions, implementation of the system certification and
                                      accreditation process, and system specific processes for identifying and
      but security                    correcting known security weaknesses. Our FISMA audit assessed GSA’s IT
      weaknesses                      Security Program based in part on how well established controls have been
        persist.                      implemented for nine select systems across the Agency. This period, we
                                      issued nine restricted audit reports detailing our technical security
                                      vulnerability findings to the GSA Chief Information Officer (CIO) and system
                                      owners for their reference in correcting identified security weaknesses.
                                      These reports convey sensitive security control weaknesses to management,
                                      including detailed results of vulnerability scanning completed for each of the
                                      systems. Technical security control weaknesses varied for each of these
                                      systems. Security officials informed us that they would perform the
                                      necessary actions to mitigate the major vulnerabilities we identified.

                                      Improvements Needed in Management, Operational, and Technical
                                      Controls for PBS’ STAR System
                                      The System for Tracking and Administering Real Property (STAR) provides
                                      PBS a means to track and manage the government’s real property assets.
                                      This mission-critical system provides PBS realty specialists and portfolio
                                      managers the capability to input and update business data and direct access
                                      to data supporting the management of space and customer billing records.
                                      The real property inventory managed through STAR consists of over


6 Semiannual Report to the Congress
                     Management Challenges



                    Information Technology (continued)

                    8,700 buildings and 340 million square feet of office and warehouse space
                    for which Federal agencies pay approximately $6 billion per year in rent.
                    The system also supports the security function in the Federal Protective
                    Service mega-centers, bills other Federal agencies for rent, provides
Management data     management information for GSA and other Federal managers, and
                    exchanges data with other systems through the PBS Data Gateway System.
   and security     The objective of our March 2005 review was to assess: 1) how well the
controls for STAR   STAR system is meeting management and user requirements; and 2) the
system need to be   effectiveness of the system’s security controls.

    improved.       We found that recent organizational, business, and system changes have
                    challenged PBS’ ability to manage STAR in a manner consistent with the
                    Agency’s enterprise architecture goals for information technology. While
                    PBS has taken steps to improve the collection and reporting of performance
                    measures, additional measures need to be established and monitored to
                    ensure management and user requirements are met. Our analysis found
                    that key information needed to meet PBS requirements was missing for
                    significant portions of the system’s data dictionary, including “rules” for data
                    content, other names used for data, and information on where and how data
                    is distributed. Completion of a comprehensive data dictionary for STAR is
                    needed to better leverage use of the system across the organization. We
                    also identified weaknesses in system security controls for STAR, including
                    incomplete background checks for contractors supporting the system;
                    insufficient audit trails to support investigations should normal system
                    operations be disrupted; risks in system interfaces; and a more
                    comprehensive approach needed for monitoring risks with the system.

                    Overall, strengthening management, operational, and technical controls for
                    STAR will better enable PBS to ensure long-term success for the system by
                    providing the information needed to effectively manage its real property
                    assets. Specifically, we recommended that the PBS Commissioner work
                    with the PBS Chief Information Officer to ensure that STAR provides:
                    necessary business line management information through system
                    enhancements that are consistent with enterprise architecture goals; system-
                    specific performance measures for identifying and monitoring progress in
                    meeting established goals and system requirements; a complete system
                    data dictionary designed to capture the comprehensive nature of information
                    in STAR; and adequate security controls. The Commissioner generally
                    concurred with our recommendations.

                    Management Controls
                    Multiple management controls and extensive supervisory reviews have been
                    replaced, through streamlining efforts, by fewer and broader controls,
                    making it essential that the remaining control processes be emphasized and
                    consistently followed. Streamlined processes have helped GSA achieve its



                                                                         Office of Inspector General 7
                                       Management Challenges



                                      Management Controls (continued)

                                      goal of serving customers more quickly and efficiently; however, the Agency
                                      is exposed to the risk of mismanagement and abuse if program officials do
                                      not ensure the faithful application of existing safeguards.

                                      Construction Prospectus Funding
                                      In recent years, concerns have been raised regarding cost overruns in PBS’
                                      construction program. Various reports and studies have identified factors
                                      that impact on construction costs including prospectus funding controls,
                                      project administration, and source selection. Under Congressional authority,
                                      PBS can escalate the cost of a construction project exceeding the
                                      prospectus threshold ($2.36 million) by up to 10 percent, given available
    Projects did not                  savings from other projects. PBS can also reprogram additional funds from
        exceed                        another source with Congressional approval.
     appropriation                    The OIG initiated a review of construction prospectus funding controls within
   amounts, but cost                  PBS and on six new courthouse construction projects. We found that PBS
     overruns were                    increased funding for five out of the six projects in our sample and
                                      reprogrammed funds for all of the projects. While management controls
       common.                        were effective in ensuring project costs did not exceed appropriations, cost
                                      overruns on the projects averaged more than 14 percent. We identified that
                                      potential funding for escalations may not be available in the future due to
                                      limited project savings. In addition, a new PBS policy requiring regional
                                      offices to obligate up to 25 percent of their repair and alteration budgets as a
                                      first source of additional funds for escalation needs could have a major
                                      impact on the repair and alteration program. The reprogramming of funds
                                      from the repair and alteration and building operations accounts are
   Diverting funding                  significantly reducing the funds available to meet the needs of these
        for new                       intended programs, which are already facing funding constraints. We also
                                      found that the Treasury Judgment Fund used for paying court judgments and
      construction                    settlement agreements may be absorbing some project-related costs. On
    overruns could                    three projects, the lack of resolution of many legitimate project costs related
  significantly impair                to change orders and government-caused work delays resulted in
                                      $32 million in costs being paid by the Judgment Fund, expenses that we
     the repair and                   believe should have been assignable to the construction projects’ budgets.
  alteration program.
                                      The Commissioner responded that PBS has implemented several initiatives
                                      to create a more rigorous project management business process. We
                                      believe these efforts must continue to ensure that new construction projects
                                      do not adversely impact the needs of other programs.

                                      Review of Management Controls Over GSA’s Centrally Billed Travel
                                      Card Account
                                      The GSA Travel Charge Card is a convenient method for Federal agencies
                                      and their employees to make payments for official government travel and
                                      travel-related expenses. Agencies can contract for travel card services with


8 Semiannual Report to the Congress
                        Management Challenges



                       Management Controls (continued)

                       any one of the five banks holding contracts under the program. GSA
                       awarded its contract task order to Citibank. There are two types of accounts
                       available under the contracts — individually billed and centrally billed.
                       Individually billed cards are issued to employees to pay for official travel
                       expenses, and the government reimburses employees who are responsible
                       for then paying the Bank. Centrally billed accounts are paid directly by the
                       government to the Bank. In GSA, most airline and rail tickets and fees are
                       centrally billed. Our integrated audit approach focused on the controls over
                       both the systems and the management of GSA’s Centrally Billed Travel
                       Charge Card Account (CBA) to ensure charges and related payments are for
                       authorized travel only.

                       Currently, GSA employees use either a manual process or FedDesk–Travel
                       and Miscellaneous Reimbursement System (TMR) and FedTrip to request
                       travel arrangements and reimbursement for travel-related expenses.
                       However, with the December 2004 award of eTravel Service (eTS) to CW
                       Government Travel, travel planning and administration will be made through
                       the eTS provider. eTS integrates travel planning and cost estimating; travel
                       authorization; reservations; fulfillment services; filing, processing, and
                       approving official travel claims; travel reimbursement data; and reporting and
   No significant
                       data exchange. The base period for the CW Government Travel task order
irregularities found   runs through November 11, 2006, with three option periods extending until
 in centrally-billed   November 11, 2013.
travel account, but    Our limited review of transactions charged to the CBA did not disclose any
 controls could be     significant irregularities in the use of the CBA. However, we did identify
   strengthened.       areas for strengthening the control environment in our December 29, 2004
                       report. The Chief Financial Officer concurred with our findings and the need
                       for additional controls. Implementation of the recommendations will be
                       incorporated into the eTravel Service.

                       Rent Pricing
                       PBS has about 20,000 rent accounts for over 100 Federal agencies across
                       the United States. The rent rate PBS charges its tenant agencies must
                       approximate commercial charges for comparable space and services. To
                       establish this rate in government-owned space, PBS uses an appraisal,
                       while leased space is priced as a pass-through of the lease contract rent
                       plus a PBS fee so that leased space will be essentially revenue-neutral. The
                       primary component of the rent rate structure is the shell rent, which is
                       generally the base building cost exclusive of operating expenses, tenant
                       improvements, security, and other charges.

                       Our audit focused on determining if the current pricing methodology is
                       implemented consistently and in accordance with PBS’ rent pricing policy as
                       it relates to the basic pricing structure. We found that PBS does not



                                                                          Office of Inspector General 9
                                        Management Challenges



                                       Management Controls (continued)

                                       consistently meet the obligations to charge commercially comparable rent
                                       rates. While tenant shell rent rates are generally established in accordance
                                       with PBS’ rent pricing policy, we noted some areas where improvements
                                       could be made to strengthen the integrity of the rent data and increase the
                                       accuracy of billing information.

                                       We found varying degrees of support for changes to the shell rate in
                                       government-owned buildings. For example, adjustments to appraiser
                                       recommended shell rates were not consistently supported in the official files,
                                       escalations to rates for new tenancies which commenced after the initial
                                       appraisal were not always documented, and lower special rates were
                                       developed for office space used as storage space. Additionally, some rates
                                       were not posted to the national database for appraisal-based rent rates,
                                       which is the basis for rent billings.

    Tenant agencies                    In addition, PBS is not always recovering costs for improvements in leased
      not billed for                   space and, in some cases, not documenting its rationale for business
                                       decisions to not recover funds for other improvements. In limited
       $700,000 of                     circumstances, PBS will fund building improvements in leased space and
        leasehold                      recover the cost by amortizing the expense over the lease term and
     improvements.                     charging the tenant. In the projects sampled, we identified almost $700,000
                                       that should have been billed to tenant agencies but was not. Also, individual
                                       PBS regional offices made business decisions not to bill customers for
                                       improvements that totaled approximately $5.4 million, the majority of which
                                       was for security enhancements. The rationale for the business decision not
                                       to bill the customer was not always formally captured. Additional monitoring
                                       of the financial performance of the leased portfolio, better use of the STAR
     PBS did not                       remarks section, and improved file documentation would alleviate this
                                       problem. Furthermore, PBS’ resolution of customer questions and customer
    provide clear                      satisfaction could also be improved through more detailed information in the
     rationale for                     property files, rent bills, and STAR.
 waiving charges for
                                       In our December 29, 2004 report to the PBS Commissioner, we
    $5.4 million in                    recommended taking steps to ensure that PBS’ rent pricing strategy is
       security                        effectively implemented by:
   enhancements.                       • Including sufficient documentation in regional files to support the source of
                                         rent rates for owned properties.

                                       • Including guidance for developing special case rates.

                                       • Billing the tenant appropriately for GSA funded leasehold improvements.

                                       • Populating more fields in STAR to promote accurate and timely research
                                         into billing questions by customers.



10 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      The PBS Commissioner generally concurred with the report
                      recommendations.

                      Protection of Federal Facilities and Personnel
                      Providing a safe, healthful, and secure environment for over 1 million
                      workers and the visitors to over 8,700 owned and leased Federal facilities
                      nationwide is a major multifaceted responsibility of GSA. The increased
                      risks from terrorism have greatly expanded the range of vulnerabilities
                      traditionally faced by building operations personnel. In March 2003, the
                      Federal Protective Service (FPS) was transferred from GSA to the
                      Department of Homeland Security (DHS). While FPS is no longer part of
                      GSA, the Agency has a continual need to closely interact with security
                      personnel due to GSA’s mission of housing Federal agencies. GSA and
                      FPS/DHS operate under a Memorandum of Agreement for obtaining
                      services such as basic security for buildings, contract guards, law
                      enforcement, background suitability determinations for contractors (including
                      child care center personnel), pre-lease security checks, occupant emergency
                      plan support, and continuity of operations support. Ensuring that Federal
                      employees have a secure work environment and that building assets are
                      adequately safeguarded must remain a primary concern of GSA.

                      Building Access through Smart Cards
                      Smart card technology can provide secure and accurate identity verification
                      with the convenience of a small plastic card, making it ideal for electronic
                      commerce, access to information systems, and physical access to facilities.
                      At the direction of OMB, GSA was asked to take the lead for adopting smart
                      card technology within the Federal Government, to enable all employees to
                      use one card for a wide range of purposes, including travel, small
                      purchases, and building access. Although GSA has provided guidance and
                      procurement vehicles for agencies to implement smart cards, it has made
                      only limited progress in implementing smart card technology for its own
                      programs and facilities.

                      The objective of our review was to determine whether PBS is effectively
                      implementing a smart card credential program for secure physical access to
Lack of supporting    facilities managed by GSA. We found that PBS’ effectiveness in
                      implementing an agency-wide credential using smart card technology has
   infrastructure     been mixed. In May 2004, PBS began issuing a uniform smart card
inhibits smart card   credential; however, this implementation was hindered by the lack of a vision
  implementation.     for incorporating the smart card credential as a component of agency-wide
                      security. Responsibility for aspects of personal identification verification and
                      building security is divided within the Agency. As a result, a card could be
                      issued to an employee who has not undergone a background check. Also,
                      unless the building has a card reader, the smart card will simply function as
                      a picture identification. Inconsistent controls and the lack of a supporting


                                                                         Office of Inspector General 11
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       infrastructure inhibit smart card credentials from delivering the convenient,
                                       yet secure, building access that the technology is capable of providing.

                                       Other aspects of the smart card initiative such as integrated security
                                       practices, interoperability, and procurement issues are also problematic. For
                                       example, the smart card contract included only a limited number of stations
                                       to capture data for the cards. Regional offices were encouraged to buy
                                       additional stations using the GSA Multiple Award Schedule, although at that
                                       time, the stations were not actually on the schedule, a deficiency that was
                                       corrected during the audit.

                                       PBS’ efforts will be impacted by two initiatives — a new Presidential directive
                                       on identification standards for Federal employees and contractors and an
                                       FPS project that will oversee smart card access to buildings and facilities.
                                       At the time of our January 14, 2005 audit report, the new standard resulting
                                       from the Presidential directive was in development; it was issued on
                                       February 25, 2005.

                                       In our report we recommended that PBS: 1) coordinate with other Agency
                                       officials in the development of the vision, goals, and scope for GSA’s smart
                                       card implementation; 2) use the vision, goals, and scope to reassess the
                                       smart card credential requirements and determine the estimated funding
                                       needs; 3) establish a physical security function within PBS to coordinate
                                       such efforts as the smart card initiatives; 4) reevaluate and improve the
                                       management controls; and 5) ensure smart card credential and physical
                                       access system procurements comply with acquisition regulations.

                                       In his response to the report, the PBS Commissioner concurred with the
                                       report recommendations.

                                       GSA’s Continuity of Operations Program
                                       Since January 2003, overall responsibility for emergency preparedness in
                                       GSA has resided in the Office of Emergency Management (OEM). One
                                       function of this office is to ensure that GSA has an effective program to
                                       continue to perform or rapidly restore essential functions or operations
                                       during and after an emergency. Within GSA, there are 26 individual
                                       continuity of operations (COOP) plans that represent each service, staff
                                       office, and region. Our audit focused exclusively on the regional plans,
                                       examining whether each region has designed a program that will allow the
                                       Agency to be prepared for, respond to, and recover from disasters resulting
                                       from natural, human, or technological events. Given GSA’s decentralized
                                       operating environment, the regional COOP plans are critical, as these
                                       embody the core of GSA’s essential functions.

                                       Overall, the GSA regional offices have developed plans that are in
                                       compliance with Federal Emergency Management Agency guidance and,

12 Semiannual Report to the Congress
                       Management Challenges



                      Protection of Federal Facilities and Personnel (continued)

                      with refinement, will be effective. However, some regions’ plans showed a
                      need for more complete identification of essential functions and the
  Regional COOP       information systems that support those functions. In addition, we found that
   plans do not       the testing necessary to validate COOP effectiveness was inconsistently
                      administered from region to region. All COOP elements should be subjected
  always identify     to testing, to the extent practicable, and held to a common standard. Finally,
essential functions   we observed that while GSA is actively constructing viable Continuity of
 or systems, nor      Operations Programs in each of its 11 regions, it has accomplished this
                      without the benefit of effective centralized authority.
undergo consistent
      testing.        In our February 10, 2005 report, we recommended that the Acting Chief of
                      Staff ensure that the OEM has the expertise and resources sufficient to
                      direct emergency preparedness in GSA. The Acting Chief of Staff agreed
                      with the recommendations as listed in the report.




                                                                        Office of Inspector General 13
                              Promoting and Protecting Integrity



                                       GSA is responsible for providing working space for almost one million
                                       Federal employees. The Agency also manages the transfer and disposal of
                                       excess and surplus real and personal property and operates a
                                       governmentwide service and supply system. To meet the needs of customer
                                       agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                                       materials, and services each year. We conduct reviews and investigations in
                                       all these areas to ensure the integrity of the Agency’s financial statements,
                                       programs, and operations, and that the taxpayers’ interests are protected. In
                                       addition to detecting problems in these GSA programs and operations, the
                                       OIG is responsible for initiating actions to prevent fraud, waste, and abuse
                                       and to promote economy and efficiency. When systemic issues are
                                       identified during investigations, they are shared with GSA management for
                                       appropriate corrective actions.

                                       Significant Criminal and Civil Actions
                                       Former GSA Employee Sentenced for Bribery
                                       A multiyear investigation has culminated with the sentencing of the last of
                                       16 individuals convicted for their involvement in bribery and kickback
                                       schemes in connection with GSA maintenance and construction projects at
                                       various Federal buildings. On March 11, 2005, a former GSA building
                                       management specialist was sentenced to three years probation with
                                       200 hours of community service per year and ordered to pay restitution of
                                       $100,000 for accepting bribes from a GSA contractor.

                                       Federal Surplus Property Program Director Pleads Guilty to
                                       Embezzlement
                                       An investigation disclosed that an individual had been embezzling money to
                                       fund a personal gambling problem. She used her positions as Director of
                                       the Nebraska State Agency for Surplus Property (NE SASP) and as Fund
                                       Administrator for the National Association of State Agencies for Surplus
    Director of state                  Property (NASASP) to embezzle funds.
    surplus property                   As the Director of the NE SASP, she acted as an agent for GSA in
    agency guilty of                   distributing surplus property to donee agencies, such as cities, counties, and
     embezzlement;                     state offices. The donee agencies were required to pay a service charge to
                                       participate in the program.
   sentenced to one
   year in prison and                  As the Fund Administrator of NASASP, she collected dues and service fees
     ordered to pay                    from its members and was responsible for depositing the funds in a local
                                       bank account for which she established and had access to.
       $456,220 in
       restitution.                    An investigation revealed that she misused money from October 1996
                                       through April 2004 by embezzling NE SASP services fees and membership
                                       dues. In addition, she billed and received money for nonexistent products
                                       from the state of Nebraska. She embezzled $415,718 from the NE SASP
                                       and $40,502 from the NASASP, by diverting the money into her NASASP
                                       account, and then withdrawing this money by writing checks. She falsified
                                       both NE SASP and NASASP records to cover-up the embezzlement.

14 Semiannual Report to the Congress
                   Promoting and Protecting Integrity



                       She pled guilty in U.S. District Court and was sentenced to one year plus
                       one day imprisonment, three years probation, and ordered to pay restitution
                       in the amount of $456,220. She has resigned her positions.

                       Contractor Pleads Guilty to Submitting False Statements
                       GSA contracted with Unlimited Security Incorporated (USI), to conduct site
                       inspections in accordance with the requirements of a GSA security guard
 Employee of GSA       contract. The inspections were to include a review of the officers’
 contractor pleads     attendance, appearance, knowledge of post orders, certifications, and
                       training. The investigation found that USI was not conducting post
guilty to falsifying   inspections as required by its GSA contract; furthermore, fraudulent data
security inspection    was used to complete post inspections reports.
      reports.
                       On December 6, 2004, a former USI contract specialist pled guilty in U.S.
                       District Court for submitting false statements to the government. He was
                       sentenced to three years probation and ordered to pay a fine of $3,000.

                       GSA Employee Incarcerated for Possessing Child Pornography
                       A joint investigation by the OIG and a local law enforcement agency led to
                       the arrest of a GSA employee who pled guilty to possession of child
                       pornography. He subsequently agreed to resign from his position. On
                       February 28, 2005, he was sentenced in U.S. District Court to 70 months
                       incarceration followed by three years supervised release and ordered to pay
                       a fine of $2,500.

                       Security Guard Convicted for Impersonating INS Official
                       A joint investigation by the OIG, Department of Justice OIG, and the New
                       York City Police Department was initiated when it was reported that a GSA
                       contract security guard was impersonating an Immigration and Naturalization
                       Service (INS) official. The investigation disclosed that the guard (with
                       assistance from his spouse) posed as an INS officer in order to extort money
                       from immigrants seeking status documents such as green cards, work
                       authorizations, and citizenship papers (documents which, of course, were
                       never provided). He was indicted by a Federal grand jury on charges of
                       conspiracy and impersonation of a Federal officer, but fled to the Dominican
                       Republic. The U.S. Marshals Service extradited him back to the United
                       States where he was found guilty in U.S. District Court of impersonating a
                       Federal officer. He is currently awaiting sentencing.

                       His spouse pled guilty to conspiracy and impersonating a Federal officer.
                       She was sentenced to 24 months in prison, two years supervisory release,
                       and ordered to pay $52,000 in restitution.

                       Fleet Charge Card Investigations
                       The GSA OIG has an ongoing proactive investigative project to identify and
                       investigate fraud associated with the misuse of GSA-issued fleet charge
                       cards. During this period, the OIG participated in a task force with the


                                                                        Office of Inspector General 15
                              Promoting and Protecting Integrity



                                       Miami-Dade Police Department, the Florida Department of Environmental
                                       Protection, the U.S. Department of Transportation, and the U.S. Postal
                                       Service OIG in an operation known as “Gas Leak,” in an effort to counter an
                                       increase of various illegal and dangerous schemes involving the sale of
                                       stolen fuel. Operation Gas Leak is an extension of a previous operation in
                                       the South Florida area involving black market fuel purchased using stolen
                                       charge cards within the past two years.

                                       The investigation found that a group of individuals used stolen government
                                       fleet charge cards and private sector fraudulent credit cards to steal fuel by
                                       pumping gas into personal vehicles equipped with large, homemade tanks.
   Forty-six arrested                  The fuel was then transported to a fuel dumpsite in the northwestern section
                                       of Miami-Dade County, Florida and transferred into fuel tankers. The stolen
   as Operation Gas                    fuel was delivered to various gas stations that were a part of the scheme
    Leak plugs fuel                    and resold to consumers. These modified vehicles transporting hundreds of
       pilfering.                      gallons of fuel in unapproved containers posed a serious risk to the public.
                                       By conservative figures, it was estimated that more than $1 million of gas
                                       was stolen in a six month period.

                                       The investigation led to the arrest of 46 individuals and the seizure of
                                       44 vehicles, including two fuel tankers, in the Miami, Florida area. Charges
                                       against these individuals included money laundering, fraud, dealing in stolen
                                       property, grand theft, unlawful transportation of fuel, and other offenses. The
                                       individuals will also be charged with violation of the Florida Racketeer
                                       Influenced and Corrupt Organizations Act.

                                       Two other fleet card abuse cases resulted in the sentencing of five
                                       individuals. In the first instance, an investigation by the OIG determined that
                                       an American Red Cross (Red Cross) employee and his friend were using a
                                       fleet card that had been assigned to a vehicle leased to the Red Cross to
                                       purchase gas for their friends in exchange for cash. The employee pled
                                       guilty to theft, and his employment was terminated. He was sentenced to
                                       two years probation, 150 hours of community service, and ordered to pay
                                       restitution in the amount of $16,122. His friend pled guilty to theft of
                                       government property and was sentenced to 15 months incarceration.

                                       In the second instance, a joint investigation by the OIG, the Army Criminal
                                       Investigations Division, and the Virginia State Police determined that four
                                       individuals were using two fleet cards assigned to the Army to purchase gas
                                       for their personal vehicles and for miscellaneous products, which they
                                       converted to their own use. Two of the four individuals pled guilty to
                                       conspiracy and were sentenced to three years probation and ordered to pay
                                       restitution in the amount of $12,716 each. Another individual pled guilty to
                                       conspiracy to making false statements and was sentenced to one year
                                       probation and ordered to pay restitution in the amount of $2,173. The fourth
                                       individual is awaiting sentencing.




16 Semiannual Report to the Congress
                   Promoting and Protecting Integrity



                      Integrity Awareness
                      The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                      employees on their responsibilities for the prevention of fraud and abuse and
                      to reinforce employees’ roles in helping to ensure the integrity of Agency
                      operations.

                      This period, we presented 11 briefings attended by 166 regional employees.
                      These briefings explain the statutory mission of the OIG and the methods
                      available for reporting suspected instances of wrongdoing. In addition,
                      through case studies, the briefings make GSA employees aware of actual
                      instances of fraud in GSA and other Federal agencies and thus help to
                      prevent their recurrence. GSA employees are the first line of defense
                      against fraud, abuse, and mismanagement. They are a valuable source of
                      successful investigative information.

                      Hotline
                      The OIG Hotline provides an avenue for employees and other concerned
                      citizens to report suspected wrongdoing. Hotline posters located in
                      GSA-controlled buildings encourage employees to use the Hotline. We also
                      developed and use our FraudNet Hotline platform to allow Internet reporting
                      of suspected wrongdoing. During this reporting period, we received
                      1,097 Hotline contacts. Of these contacts, 140 Hotline cases were initiated.
                      In 62 of these cases, referrals were made to GSA program officials for
                      review and action as appropriate, 20 cases were referred to other Federal
                      agencies for follow up, 29 were referred for OIG criminal/civil investigations
                      or audits, and 29 did not warrant further review.

                      Significant Preaward Reviews and Other Audits
                      The OIG’s preaward review program provides information to contracting
Preaward reviews      officers for use in negotiating contracts. The pre-decisional, advisory nature
                      of preaward reviews distinguishes them from other audits. This program
 of 53 contracts      provides vital and current information to contracting officers, enabling them
  identify over       to significantly improve the government’s negotiating position and to realize
 $392 million in      millions of dollars in savings on negotiated contracts. This period, the OIG
                      performed preaward reviews of 53 contracts with an estimated value of
cost avoidances.      $4.3 billion. The reports contained over $392 million in cost avoidances.

                      The Office of Management and Budget (OMB) has long recognized the
                      increasing dollar value of GSA’s contract activities and our limited resources
                      in providing commensurate audit coverage. Through FSS and FTS contract
                      program revenues, OMB officials have provided us additional financial
                      support to increase our work in this area. These funds enabled us to hire
                      additional staff to support expanded contract review activities including,
                      primarily, an increase in preaward contract reviews, as well as more contract
                      performance reviews that test contractors’ compliance with pricing, billing,
                      and terms of their contracts, and periodic program evaluations to assess the



                                                                         Office of Inspector General 17
                              Promoting and Protecting Integrity



                                       efficiency, economy, and effectiveness of contracting activities. With these
                                       added resources, we are planning to substantially increase the number of
                                       preaward reviews in FY 2006.

                                       Four of the more significant Multiple Award Schedule contracts we reviewed
                                       had projected governmentwide sales totaling $2.5 billion. The review
                                       findings recommended that over $300 million in funds be put to better use.
                                       The reviews disclosed that these vendors offered labor rates to GSA that
                                       were not as favorable as the rates other customers receive from these
                                       vendors.

                                       We also reviewed various claims for increased costs. Two of the more
                                       significant projects reviewed contained proposed amounts totaling
                                       $12.9 million, and our reviews of the claims recommended adjustments of
                                       over $6.9 million. Our review of a subcontractor on one construction project
                                       found that the claimed amounts were either overstated or not supported by
                                       the company’s records. In another review of increased costs due to alleged
                                       delays, we adjusted various costs because the claimed amounts were not
                                       based on actual costs and included some costs not allowed by the contract.

                                       Federal Managers’ Financial Integrity Act Review
                                       The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
                                       GSA management to provide assurance to the President and the Congress
                                       that Agency resources are protected from fraud, waste, mismanagement,
                                       and misappropriation. FMFIA, Section 4 relates to the CFO’s disclosure of
                                       nonconformances with Federal financial management system policies and
                                       standards. The assurance statements of the Regional Administrators and
                                       Heads of Services and Staff Offices are used by the Agency’s Management
                                       Control Oversight Council as a basis for developing the Administrator’s
                                       assurance statement.

                                       Each year, we review the Agency’s FMFIA process to determine whether
                                       management adequately disclosed all known control weaknesses and
                                       nonconformances in the Agency’s programs, operations, and management
                                       systems. For FY 2004, we found that the Agency’s weaknesses generally
                                       fell into four categories — FTS contracting practices, PBS’ construction in
                                       progress, GSA’s budgetary reporting processes, and implementation of FTS’
                                       new GSA Preferred system.

                                       In addition, we reviewed the status of prior year weaknesses and
                                       nonconformances. Although IT systems development, implementation, and
                                       change controls continue to be an issue of concern for the Agency, we noted
                                       that significant improvements have been made in areas such as
                                       reconciliation and monitoring controls and agency-wide network and
                                       application security controls.




18 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Office of the Chief Financial Officer Transformation
   The GSA Office of the Chief Financial Officer (OCFO) continues to improve
   operations to meet its obligations under the Chief Financial Officer’s Act of
   1990. To carry out this process, the OCFO issued a comprehensive five-
   year plan covering Fiscal Years 2003–2007 with the following goals: 1) to
   deliver world class financial management services to GSA and external
   customers; 2) to produce timely and accurate internal and external financial
   analysis and reporting; and 3) to provide reliable financial management
   systems and innovative solutions. The objective of our review was to assess
   the status of goal three since, according to the plan, this must be
   accomplished in order to achieve goals one and two.

   Our review noted that the OCFO is attempting to accomplish a significant
   number of concurrent initiatives in order to fully implement the CFO Act, and
   that the OCFO has a positive relationship with other GSA offices, but other
   factors could impact future OCFO efforts. Critical to the achievement of
   OCFO goals is the full implementation of Pegasys, GSA’s new financial
   management system, and related activities. We reported on additional steps
   needed to complete four key financial management system initiatives —
   asset management, cost allocation, accounts receivable/billings, and system
   integrity — that, if accomplished, represent significant progress toward
   achieving the goal of reliable financial management systems. The OCFO
   has a targeted end date of September 30, 2005 to complete all of these
   initiatives, and several related tasks have already been completed. GSA
   continues to spend money operating both Pegasys and NEAR (the old
   system being replaced by Pegasys), to maintain required functionality, and
   expects to do so through FY 2005.

   Based on our review, we offered several suggestions to improve future five-
   year plans, such as annually updating the plans, including identification of
   external factors that would impact on accomplishment of the goals, and
   analyzing recommendations from the draft Pegasys Post-Implementation
   Review Report provided by a contractor as part of the independent
   verification and validation services for Pegasys.

   FTS Working Capital/Reserve Fund Levels
   FTS recovers costs for its IT and telecommunications services provided to
   Federal agencies through use of the IT Fund and fees established annually.
   The IT Fund is a full-cost recovery revolving fund, and the Fund’s capital
   reserve provides financing for capital investments and program costs which
   are one-time or nonrecurring in nature, allowing for more stable fees for
   services. In FY 2003, FTS revenues were over $8.7 billion. About
   96 percent of revenues was paid to vendors for services provided, with the
   remaining 4 percent covering FTS’ administrative and overhead expenses.
   FY 2004 revenues fell about 3 percent, marking the first time in 10 years that
   revenue has not increased.



                                                     Office of Inspector General 19
                              Promoting and Protecting Integrity



                                       The legislation that established the IT Fund provides some guidance relating
                                       to minimum balances required and grants the Administrator authority “. . . to
                                       enter into multiyear contracts for the provision of information technology
                                       hardware, software, or services for periods not in excess of five years, if
                                       funds are available and adequate for payment of the costs of such contract
                                       for the first fiscal year and any costs of cancellation or termination . . . .”
                                       However, maximum levels have not been defined for the reserves that
                                       comprise FTS’ IT Fund.

                                       Developing maximum reserve levels would ensure that there are sufficient IT
                                       funds available to meet mission needs without maintaining excess amounts
                                       and burdening customer agencies with additional fees. At the end of
                                       FY 2004, the IT Fund balance totaled $214 million, and depending on the
                                       resolution of the classification of two other accounts, may have been as high
                                       as $317 million. If FTS adopts a business model to determine maximum
                                       fund levels such as the one discussed in our report, $39 to $142 million
                                       could be available for return to the Treasury.

                                       Based on our research of United States Tax Court decisions, we provided a
                                       model that FTS can use to assess the maximum levels of reserves required
                                       in the IT Fund. While FTS’ net operating results fluctuated between positive
                                       as well as negative amounts over the last five years, ranging between a
                                       positive $31 million in 2004 and a negative $57 million in 2001, we believe
                                       FTS’ use of a dynamic business evaluative process, such as one based on
                                       Tax Court decisions, would both maintain reserve fund levels at needed
                                       amounts and stabilize FTS fees. This assumes that FTS manages its
                                       receivables aggressively to minimize its operating cycle and related working
                                       capital needs, resulting in the maintenance of cash balances sufficient for
                                       business needs.

                                       The Acting FTS Commissioner generally concurred with our
                                       recommendation in principle, pending the planned merger of the General
                                       Fund and the IT Fund.

                                       Transfer of Funds for Federal Protective Service
                                       Operations
                                       In an effort to assist GSA’s independent public accounting firm in the
                                       completion of GSA’s FY 2004 Financial Statement Audit, we reviewed the
                                       transfer of funds from GSA to the Department of Homeland Security (DHS),
                                       directed by Congress to cover the costs of Federal Protective Service (FPS)
                                       operations.

                                       Our review found that in accordance with the DHS Appropriations Act of
                                       2004, GSA transferred $424,211,000 to DHS for FPS operations. We also
                                       reviewed the revenue collections reported for the Federal Buildings Fund for
                                       FY 2004, and determined that the amount GSA collected for security
                                       services as a portion of rent did not exceed the amount transferred to DHS,
                                       in accordance with the Act.

20 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Financial Statement Audit and Related Reports
   With the passage of the Chief Financial Officer’s Act of 1990, Congress and
   the Office of Management and Budget (OMB) have established a framework
   for financial audits and reviews designed to enhance the Federal
   Government’s financial management and reporting practices. Summarized
   below are the results of our financial and financial-related reviews.

   As in past years, the Financial Statement Audit was performed by an
   independent public accounting firm, PricewaterhouseCoopers (PwC), with
   oversight, support work, and guidance provided by the OIG. The firm issued
   unqualified opinions on the Agency’s FY 2003 and 2004 financial
   statements. However, in its consideration of the GSA’s internal controls over
   financial reporting, the firm identified six reportable conditions concerning the
   Agency’s need to:

   • Improve development, implementation, and change controls over GSA’s
     financial applications.

   • Strengthen the Federal Supply Service’s application security controls.

   • Improve controls over transferring substantially complete construction in
     process projects within PBS.

   • Improve contracting practices in the FTS’ Office of Information Technology
     Solutions.

   • Develop and implement policies and procedures to reconcile
     intragovernmental activity and balances with GSA’s non-fiduciary trading
     partners.

   • Improve GSA’s budgetary reporting process.

   PwC also reported on four violations of compliance with laws and
   regulations. One violation concerned instances in which FTS officials
   breached government procurement laws and regulations. The remaining
   three instances of noncompliance were violations of the Anti-Deficiency Act,
   including two instances in which the IT Fund was used for non-IT purposes,
   and one instance in which a temporary cash shortfall occurred in the
   Working Capital Fund.

   Testing Controls Over Performance Measures
   The OIG conducted the portion of GSA’s FY 2004 Financial Statement Audit
   related to internal controls over performance measures. Our report noted
   that the internal controls designed by the OCFO over GSA’s performance
   measure data are operating effectively. Although we had identified
   significant internal control weaknesses in the past, the results of our testing
   indicated that the OCFO has taken a number of steps to ensure the
   adequacy of the internal controls over GSA’s performance measure data.

                                                       Office of Inspector General 21
                              Promoting and Protecting Integrity



                                       Evaluation of Specific Performance Measures
                                       As part of the Financial Statement Audit process and in accordance with
                                       OMB Bulletin No. 01-02, the OIG also performed an assessment of internal
                                       controls over the existence and completeness of the data supporting the
                                       Office of Citizen Services and Communications’ (OCSC) Performance
                                       Measure: “Tax Dollars Saved as a Result of Agencies Sharing FirstGov
                                       Technologies.” In our review of the OCSC performance measure, we found
                                       that there is a low risk that the internal controls would not provide
                                       reasonable assurance that the data supporting the performance measure
                                       exist and are complete.

                                       Agreed-Upon Procedures Reviews
                                       In support of the Financial Statement Audit, we performed agreed-upon
                                       procedures reviews over GSA’s FY 2004 environmental liabilities and legal
                                       loss contingencies.




22 Semiannual Report to the Congress
                 Governmentwide Policy Activities



                    We regularly provide advice and assistance on governmentwide policy
                    matters to the Agency, as well as to other Federal agencies and to
                    committees of Congress. In addition, as required by the Inspector General
                    Act of 1978, we review existing and proposed legislation and regulations to
                    determine their effect on the economy and efficiency of the Agency’s
                    programs and operations and on the prevention and detection of fraud and
                    mismanagement. Because of the central management role of the Agency in
                    shaping governmentwide policies and programs, most of the legislation and
                    regulations reviewed invariably impact governmentwide issues in areas such
                    as procurement, property management, travel, and government
                    management and information technology systems.

Interagency         This period, we provided advice and assistance to the Office of Management
                    and Budget (OMB) on various procurement policy issues, particularly in the
Committees and      area of time-and-materials and labor-hours contracts.
Working Groups
                    In addition, we participated on a number of interagency committees and
                    working groups that deal with cross-cutting and governmentwide issues:

                    • The Assistant Inspector General (AIG) for Auditing represents all civilian
                      government agencies on the Cost Accounting Standards Board, an
                      independent board within OMB’s Office of Federal Procurement Policy,
                      which promulgates, amends, and revises Cost Accounting Standards
                      designed to achieve uniformity and consistency in cost accounting
                      practices by individual government contractors.

                    • The AIG for Investigations serves as the Chair of the Assistant Inspectors
                      General for Investigations Subcommittee. This subcommittee reports to
                      the President’s Council on Integrity and Efficiency (PCIE) Investigative
                      Committee. The subcommittee deals with investigative issues that affect
                      all OIG Offices of Investigations, such as peer review and coordinated
                      assistance to the Department of Justice.

                    • OIG audit representatives participate in the Federal Audit Executive
                      Council’s IT Security Committee to develop approaches and techniques
                      for conducting IT security audits under the Federal Information Security
                      Management Act. Audit representatives also participate in the PCIE IT
                      Roundtable to discuss various methodologies and best practices for
                      conducting IT audits.

                    • Our TeamMate Technical Support Group participates in the TeamMate
                      Federal Users Group and the PricewaterhouseCoopers TeamMate Users
                      Group to discuss concerns and new challenges facing TeamMate users.
                      TeamMate is an automated audit workpaper management system
                      designed to make the audit process more efficient.

                    • The Special Assistant to the AIG for Auditing represents GSA on the White
                      House Commission on the National Moment of Remembrance. The


                                                                      Office of Inspector General 23
                               Governmentwide Policy Activities



                                         Commission was established to enhance the legacy of Memorial Day as a
                                         day to honor those who have sacrificed their lives for the principles of
                                         freedom and liberty. Major initiatives included listing Commission
                                         activities on Federal, state, and local government Web sites, and seeking
                                         the participation of Federal employees, retirees, and benefit recipients.

                                       • The Inspector General (IG) serves on the Human Resources and
                                         Legislation Committees of the PCIE. The Human Resources Committee
                                         fosters educational opportunities for members of the IG community and
                                         assists in ensuring the professional development of OIG personnel. The
                                         Legislation Committee develops, coordinates, and represents to Congress
                                         official PCIE positions on particular legislative issues.

                                       • The IG has served as Editor-in-Chief of The Journal of Public Inquiry, a
                                         semiannual publication of the Federal IG community.

Legislation and                        During this reporting period, the OIG reviewed 87 legislative matters and
                                       21 proposed regulations and directives. The OIG specifically commented on
Regulations                            the following legislative and other items:

                                       • Recodification of Title 41, H.R. 4320. We provided a comment on the bill
                                         that was intended to recodify Title 41 without substantive change. We
                                         pointed out that Section 8701 of the bill deleted the current definition of
                                         “person” contained in the Anti-Kickback Act. We noted that the definition
                                         is useful to the enforcement of the Act and recommended that it be
                                         retained in any recodification.

                                       • Draft Acquisition Letter on Contract Support Items. We provided
                                         comments to the Federal Supply Service (FSS) on the most recent draft
                                         of an Acquisition Letter related to contract support items (CSIs), or other
                                         direct costs (ODCs). We first recommended that the definition and
                                         coverage of CSIs be revised to incorporate more examples of types of
                                         CSIs and how they are expected to be priced. We also advised that, to
                                         avoid cost duplication, the letter direct contracting officers to obtain from
                                         vendors a list or description of costs that the vendor typically charges
                                         directly to commercial customers and that are not included in the Multiple
                                         Award Schedule (MAS) labor rate. We also suggested that the language
                                         of the draft letter be expanded to ensure that contracting officers also
                                         consider other indirect cost elements, in addition to profit, in ensuring that
                                         those elements are not included in the MAS labor rates.




24 Semiannual Report to the Congress
Professional Assistance Services



   The Government Accountability Office recently issued a revision to the
   independence standard contained in the Government Auditing Standards.
   This amendment prohibits Federal audit organizations from performing
   certain types of management consulting projects because they may impair
   the independence of the auditors when performing subsequent audit work in
   the same area. Although we have always maintained our independence
   when working closely with GSA management, we are no longer performing
   consulting assignments, and we carefully assess our services to ensure
   compliance with the new standard. As allowed under the new standard, we
   are continuing our participation on Agency improvement task forces,
   committees, and working groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides
   advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We also benefit by expanding our new initiatives within the Federal
   community. We nevertheless maintain our ability to independently audit and
   review programs. Our participation on the task forces is typically as a
   non-voting advisory member. We maintain a strict policy of excluding staff
   members who have served on developmental task forces from subsequent
   audits of the same subject areas.

   Some areas in which we have been involved this period include:

   • Single Audit Act Activities. The Single Audit Act established uniform
     audit requirements for state and local governments receiving Federal
     awards. The non-Federal entities that receive Federal awards under
     more than one Federal program are required to undergo a single audit to
     prevent duplicate audits and inefficiencies. Each Federal agency monitors
     the non-Federal entity’s use of awards provided by the Agency, and
     assesses the quality of the audits conducted relative to its program. The
     OIG monitors these activities primarily as they relate to the personal
     property disposal program.

   • The Information Technology (IT) Council. The Council monitors
     policies and programs to ensure IT consistency throughout the Agency. It
     is comprised of the Chief Information Officers of the various GSA Services
     and Staff Offices. Representatives of our office participate in meetings at
     the request of the Agency on such matters as systems controls,
     architecture, security, or new legislative requirements.


                                                    Office of Inspector General 25
                               Professional Assistance Services



                                       • Multiple Award Schedule Working Group. The Multiple Award
                                         Schedule (MAS) Working Group was established as a result of an OIG
                                         report released in August 2001 relating to MAS contracting pricing
                                         practices. The MAS Working Group is primarily comprised of members of
                                         the Federal Supply Service (FSS) and the OIG, with representation also
                                         from the Office of General Counsel and the Office of Acquisition Policy.
                                         The Working Group meets regularly and serves as a standing forum for
                                         discussion and resolution of issues or concerns having to do with MAS
                                         contracting. It has served as an effective institutionalized communications
                                         channel for both broad policy issues and discrete issues having to do with
                                         particular contracts or reviews.

                                         The Working Group has had several areas of focus, including preaward
                                         contract reviews and MAS negotiations issues. The Working Group has
                                         developed guidance to MAS contracting officers (COs) regarding the
                                         performance and use of preaward MAS contract reviews. Further, the
                                         Working Group has reinvigorated the process by which FSS and the OIG
                                         collaboratively select and commence preaward reviews of vendors, and
                                         has built into this process specific mechanisms for COs to request
                                         reviews of particular vendors. The Working Group has also focused on
                                         issuing guidance to COs regarding negotiations objectives and discrete
                                         negotiations issues for MAS contract awards. The Working Group also
                                         provided some input to FSS in its efforts to upgrade or enhance pricing
                                         performance measures on MAS contracts.

                                       • The Heartland Region Acquisition Guild and the Rocky Mountain
                                         Region Contract Review Group meet periodically to evaluate changes
                                         to the Federal Acquisition Regulation (FAR), GSA Acquisition Manual, and
                                         directives, and their associated impact on the regional contracting officials,
                                         and to provide instruction/guidance to regional contracting personnel
                                         relative to the changes. OIG audit representation is provided on an
                                         ad hoc advisory basis.




26 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 98 audit reports during this reporting period. The 98 reports
                             contained financial recommendations totaling $393,448,641 including
                             $392,872,817 in recommendations that funds be put to better use and
                             $575,824 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable
                             to other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 2005. There were no reports more than six months
                             old awaiting management decisions as of March 31, 2005. Table 1 does not
                             include 4 reports issued to other agencies this period. Table 1 also does not
                             include 6 reports excluded from the management decision process because
                             they pertain to ongoing investigations.


                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 10/1/04
  Less than six months old                         38                   26               $ 80,874,074
  Six or more months old                            1                    1                  1,601,178
Reports issued this period                         94                   41                393,448,641
TOTAL                                             133                   68               $475,923,893
For which a management decision
was made during the reporting period
  Issued prior periods                              39                  27               $ 82,475,252
  Issued current period                             53                  10                  8,138,793
TOTAL                                               92                  37               $ 90,614,045
For which no management decision
had been made as of 3/31/05
  Less than six months old                          41                  31               $385,309,848
  Six or more months old                             0                   0                          0
TOTAL                                               41                  31               $385,309,848




                                                                              Office of Inspector General 27
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                                  No. of                       Financial
                                                                 Reports                   Recommendations

       For which no management decision had
       been made as of 10/1/04
         Less than six months old                                   25                      $ 80,856,047
         Six or more months old                                      1                         1,601,178
       Reports issued this period                                   37                       392,872,817
       TOTAL                                                        63                      $475,330,042

       For which a management decision was
       made during the reporting period
         Reports issued before 10/1/04                              26                      $ 82,457,225
         Reports issued in the current period                        9                         7,970,117
       TOTAL                                                        35                      $ 90,427,342*

       For which no management decision had
       been made as of 3/31/05
         Less than six months old                                    28                     $384,902,700
         Six or more months old                                       0                                0
       TOTAL                                                         28                     $384,902,700

       *Management agreed with $34,375,900.•




28 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments




            Table 3. Management Decisions on OIG Audits
                       with Questioned Costs

                                          No. of          Questioned
                                         Reports            Costs

For which no management decision
had been made as of 10/1/04
  Less than six months old                   1            $ 18,027
  Six or more months old                     0                   0
Reports issued this period                   4             575,824
TOTAL                                        5            $593,851
For which a management decision
was made during the reporting period
  Reports issued before 10/1/04              1            $ 18,027
  Reports issued in the current period       1             168,676
TOTAL                                        2            $186,703*

For which no management decision
had been made as of 3/31/05
  Less than six months old                   3            $407,148
  Six or more months old                     0                   0
TOTAL                                        3            $407,148

*Management agreed with the total.




                                                    Office of Inspector General 29
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 133 investigative cases and closed 112 cases during this
                                       period. In addition, the OIG received and evaluated 41 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for possible
                                       litigation. The OIG also makes administrative referrals to GSA officials on
                                       certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.



                                Table 4. Summary of OIG Referrals

           Type of Referral                              Cases                               Subjects
           Criminal                                        50                                   120
           Civil                                            8                                    14
           Administrative                                  72                                   176
           TOTAL                                          130                                   310


                                       In addition, the OIG made 22 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 25 cases (69 subjects) were accepted
                                       for criminal prosecution and 5 cases (8 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       40 indictments/informations and 20 successful prosecutions. OIG civil
                                       referrals resulted in 2 case settlements. Based on OIG administrative
                                       referrals, management debarred 24 contractors/individuals, suspended
                                       16 contractors/individuals, and took 16 personnel actions against
                                       employees.




30 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments



                         Monetary Results
                         Table 5 presents the amounts of fines, penalties, settlements, judgments,
                         and restitutions payable to the U.S. Government as a result of criminal and
                         civil actions arising from OIG referrals.


                Table 5. Criminal and Civil Recoveries
                                             Criminal                          Civil

Fines and Penalties                           $ 22,780                     $      —

Settlements and Judgments                                                   23,000

Restitutions                                   740,261                            —

TOTAL                                         $763,041                    $23,000



                         Table 6 presents the amount of administrative recoveries, recovered
                         property, and savings as a result of investigative activities.


                        Table 6. Other Monetary Results
Administrative Recoveries                     $522,928

Recovered Property                              32,904

Investigative Savings                                —

TOTAL                                         $555,832




                                                                          Office of Inspector General 31
APPENDICES
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,          Review of Agency Liaison Division
the GSA Office of the Chief Financial Officer, Office of
                                                             Period First Reported: April 1, 2004 to September 30, 2004
the Controller, is responsible for tracking the
implementation of audit recommendations after a              The review evaluated the Agency Liaison Division.
management decision has been reached. That office            The report contained four recommendations; three
furnished the following status information.                  have been implemented.

Seventeen audits highlighted in prior reports to the         The remaining recommendation requires the Division
Congress have not yet been fully implemented; all are        to identify and relate activity costs with the time spent
being implemented in accordance with currently               to carry out its services. It is scheduled for completion
established milestones.                                      on October 15, 2005.

Review of the Special Order Program                          Review of FedBizOpps
Period First Reported: April 1, 2004 to September 30, 2004   Period First Reported: April 1, 2004 to September 30, 2004
The regional review of the Special Order Program con-        The review involved an online survey of FedBizOpps
cluded that order processing can be streamlined. The         users to gather information on user satisfaction to
report contained five recommendations; two have been         assess the effectiveness of FedBizOpps. The report
implemented.                                                 contained four recommendations; they have not been
                                                             implemented.
One remaining recommendation involves removing
National Stock Numbers (NSNs) from Multiple Award            The recommendations involve developing a process to
Schedule contracts. It is scheduled for completion on        solicit input from vendors on system enhancements,
January 15, 2006. Another recommendation involves            evaluating enhancements to FedBizOpps based on
establishing a policy to deactivate NSNs with no             vendor input, ensuring that background checks are
ordering activity for the prior three years. No action       completed, and ensuring that memoranda of
plan was provided for this recommendation.                   agreements are in place for FedBizOpps users. Three
Concurrence must be received from recorded users of          recommendations are scheduled for completion
the NSNs before any deletions can be made. The third         between July 15 and August 15, 2005. One recom-
recommendation involves evaluating inefficiencies of         mendation is awaiting an extension request.
using outside labor to input information. No action plan
was provided for this recommendation. Evaluation has         Employee Awards Program
been completed.                                              Period First Reported: April 1, 2004 to September 30, 2004
                                                             The review evaluated management controls of the
Western Distribution Center                                  Employee Awards Program. The report contained five
Relocation Project                                           recommendations; four have been implemented.
Period First Reported: April 1, 2004 to September 30, 2004
The review assessed whether the projection of costs          The remaining recommendation, which requires
and savings to relocate and modernize the Western            implementation of a management tool to review the
Distribution Center was accomplished within                  justification and nature of awards being made by
anticipated costs. The report contained two recom-           approving officials, is scheduled for completion on
mendations; they have not been implemented.                  January 15, 2006.

The recommendations involve ensuring more accurate           GSA’s Information Technology
and complete data on future projects and analyzing and       Security Program
validating proposals for future capital projects before
                                                             Period First Reported: April 1, 2004 to September 30, 2004
making any commitments. No further action is required
on the recommendations at this time because mile-            The review of security controls established with
stones have not yet been determined.                         GSA’s IT Security Program identified areas where

                                                                                          Office of Inspector General 35
                    Appendix I–Significant Audits from Prior Reports




improvements are needed. The report contained four           One remaining recommendation involves maximizing
recommendations; three have been implemented.                revenue by pricing to reflect the underlying demand. A
                                                             revised action plan has been approved and is awaiting
The remaining recommendation involves incorporating          concurrence. The other recommendation requires
controls to ensure operations of contractors’ system         considering suggestions for direction and refinement of
and data are monitored and completing testing and            the restructuring initiative. It is scheduled for comple-
evaluations. It is scheduled for completion on               tion on October 15, 2005.
August 15, 2005.
                                                             Oversight of Leases
Wireless Telecommunications                                  Period First Reported: October 1, 2003 to March 31, 2004
Services
                                                             The review examined PBS’ management and adminis-
Period First Reported: April 1, 2004 to September 30, 2004   tration of leases in several regions. The report
The review evaluated GSA’s management of the                 contained three recommendations; two have been
efficiency and costs of wireless telecommunications          implemented.
services. The report contained two recommendations;
they have not been implemented.                              The remaining recommendation involves strengthening
                                                             the accuracy and sufficiency of lease information. It is
The recommendations require developing plans aimed           scheduled for completion on June 15, 2005.
at reducing wireless phones’ cost per minute and
incorporating guidance in current policy aimed at            FSS Acquisition Workforce
reducing wireless cost per minute. They are scheduled        Qualifications
for completion between June 15 and July 15, 2005.            Period First Reported: October 1, 2003 to March 31, 2004
                                                             The review addressed whether FSS was ensuring that
Review of E-Authentication                                   its acquisition personnel comply with the qualification
Period First Reported: April 1, 2004 to September 30, 2004   standards established by the Office of Federal
A review of FTS E-Authentication, one of the E-Gov           Procurement Policy (OFPP). The report contained four
initiatives, identified areas where improvements are         recommendations; three have been implemented.
needed. The report contained four recommendations;           The remaining recommendation involves creating and
one has been implemented.                                    implementing quality control procedures for inputting
                                                             and maintaining data within the system and
The remaining recommendations involve developing a           establishing and ensuring that the system tracks all
business model with funding methodology for FY 2006          OFPP workforce qualifications. It is scheduled for
and beyond, merging components of the                        completion on June 15, 2005.
E-Authentication initiative into an agency implementa-
tion guide, and notifying E-Gov initiatives that result      Improper Contracting Practices
from E-Authentication that have not yet been incorpo-        Period First Reported: October 1, 2003 to March 31, 2004
rated into the technical architecture and identify risks.
They are scheduled for completion between July 15            The review focused on improper contracting practices
and December 15, 2005.                                       at FTS Client Support Centers (CSC). The report
                                                             contained three recommendations; two have been
The Portfolio Restructuring Initiative                       implemented.
Period First Reported: October 1, 2003 to March 31, 2004
                                                             The remaining recommendation involves determining
The review evaluated PBS’ portfolio restructuring initia-    what changes are needed to align policies and proce-
tive. The report contained three recommendations;            dures with laws, regulations, and GSA’s values. It is
one has been implemented.                                    scheduled for completion on May 15, 2005.



36 Semiannual Report to the Congress
                   Appendix I–Significant Audits from Prior Reports




Review of GSA’s Process for                                The remaining recommendation, which requires
Establishing Lodging Per Diems                             developing access to reliable data for all delivery meth-
Period First Reported: October 1, 2003 to March 31, 2004   ods, is scheduled for completion on June 15, 2005.
The review examined the process for establishing
lodging per diem rates. The report contained two rec-
                                                           Billing and Payment Systems
ommendations; one has been implemented.                    Period First Reported: April 1, 2002 to September 30, 2002

                                                           The review examined controls over reimbursable work
The remaining recommendation involves documenting
the reason for any modification or dismissal of any of     authorizations (RWA) billings between GSA and other
the Advisory Board’s recommendations. It is scheduled      Federal agencies. The report contained two recom-
for completion on October 15, 2005.                        mendations; one has been implemented.

GSA.gov                                                    The remaining recommendation involves incorporating
Period First Reported: October 1, 2003 to March 31, 2004   estimated cost data for planning workflow before and
The review evaluated the redesigned GSA.gov Web            during the RWA process. It is scheduled for comple-
portal. The report contained two recommendations;          tion on October 15, 2005.
one has been implemented.
                                                           Operating Equipment Inventories
The remaining recommendation involves developing           Period First Reported: October 1, 2000 to March 31, 2001
and implementing direction and guidance for all GSA
Offices consistent with best practices on their Web        The review focused on equipment maintenance
pages. It is scheduled for completion on May 15, 2005.     kept by contractors. The report contained two recom-
                                                           mendations; one has been implemented.
Consolidation of Distribution Centers
Period First Reported: October 1, 2002 to March 31, 2003   The remaining recommendation involves identifying the
The review examined the operations of the FSS Stock        responsibility for maintenance programs to
Program. The report contained two recommendations;         contractors.   It is scheduled for completion on
one has been implemented.                                  May 15, 2005.




                                                                                        Office of Inspector General 37
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                    Recommendations
                                                                                Funds to        Questioned
Date of        Audit                                                           Be Put to      (Unsupported)
Report         Number                    Title                                 Better Use         Costs



(Note: Because some audits pertain to contract award or actions that
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)

PBS Internal Audits
12/29/04        A040104         Audit of PBS Rent Pricing

01/14/05        A040111         Audit of Building Access Through Smart
                                Cards

02/08/05        A040174         Review of PBS Acquisition of Labor Hour
                                Information Technology Services in the
                                National Capital Region

02/10/05        A030266         Audit of Prospectus         Funding   as   a
                                Management Control

03/30/05        A040089         Limited Review of Contract Administration
                                Task Order Number P1102MA0249

03/31/05        A040159         Improvements Needed in Management,
                                Operational, and Technical Controls for
                                PBS’ STAR System

PBS Contract Audits
10/12/04        A040190         Review of a Claim: Petersen Geller
                                Spurge, Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract
                                Number GS-02P-99-DTC-0006(N)

10/18/04        A040238         Attestation Review of Architect and
                                Engineering Design Services Contract:
                                Westlake Reed Leskosky, Consultant to
                                Richard Fleischman Architects, Inc.,
                                Contract Number GS-05P-03-GBC-0096

10/20/04        A040195         Preaward Review of Architect and
                                Engineering Design Services Proposal:
                                GGA.Ehrenkrantz Eckstut & Kuhn
                                Architects, Solicitation Number GS-11P-
                                03-MKC-0004




38 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number              Title                                Better Use         Costs



10/28/04   A040161   Preaward Audit of a Claim: Artex Systems
                     Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number
                     GS-02P-99-DTC-0006(N)

10/28/04   A040237   Attestation Review of Architect and
                     Engineering Design Services Contract:
                     Olin Partnership, Ltd., Consultant to
                     Richard Fleischman Architects, Inc.,
                     Contract Number GS-05P-03-GBC-0096

11/18/04   A040263   Review of Forward Pricing Rates: Bovis
                     Lend Lease LMB, Inc., Contract Number
                     GS-02P-99-DTC-0006(N)

12/09/04   A040235   Attestation Engagement Review of Claim
                     for Increased Costs: Vee See Construction
                     Company, Inc., Contract Number GS-05P-
                     00-GAC-0044

12/22/04   A050081   Review of A/E Services Contract: Davis
                     Brody Bond, LLP, Solicitation Number GS-
                     02P-04-DTC-0023(N)

12/23/04   A050072   Review of A/E Services    Contract: Flack +
                     Kurtz, Inc., Consultant   to Beyer, Blinder,
                     Belle, Architects &        Planners, LLP,
                     Solicitation Number       GS-02P-04-DTC-
                     0023(N)

12/30/04   A040254   Attestation Engagement Review of Claim
                     for Increased Costs: Mitchell Enterprises,
                     Inc., Contract Number GS-07P-00-UJC-
                     0007

12/30/04   A050083   Attestation Engagement Review of Claim
                     for Increased Costs: LDI Metalworks, Inc.,
                     Subcontractor to Mitchell Enterprises, Inc.,
                     Contract Number GS-07P-00-UJC-0007

01/04/05   A050071   Review of A/E Services Contract: Beyer
                     Blinder Belle Architects & Planners, LLP,
                     Solicitation Number GS-02P-04-DTC-
                     0023(N)



                                                                         Office of Inspector General 39
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                   Title                               Better Use         Costs



01/20/05       A050034         Review of Construction Management
                               Services Contract: Bovis Lend Lease LMB,
                               Inc., Solicitation Number GS-02P-04-DTC-
                               0028(N)

01/25/05       A040244         Preaward Review of Architect and
                               Engineering Design Services Proposal:
                               JVP Engineers, PC, Solicitation Number
                               GS-11P-03-MKC-0004

01/25/05       A040245         Preaward Review of Architect and
                               Engineering Design Services Proposal:
                               JVP Engineers, PC, Solicitation Number
                               GS-11P-03-MKC-0004

01/28/05       A050087         Review of A/E Services Contract: Richard
                               Dattner & Partners Architects PC,
                               Solicitation Number GS-02P-04-DTC-0031

03/11/05       A050097         Review of Construction Management
                               Services Contract: Bovis Lend Lease, Inc.,
                               Solicitation Number GS-02P-04-DTC-
                               0048(N)

03/15/05       A040178         Preaward Review of Change Order
                               Proposal:     Abide International, Inc.,
                               Construction Manager for Renovation &
                               Alteration Work on the 300 North Los
                               Angeles Street Federal Building, Los
                               Angeles, California, Contract Number GS-
                               09P-96-KTC-0017

03/17/05       A050117         Preaward Review of Change Order
                               Proposal: Dick/Morganti, a Joint-Venture,
                               Modification (Instruction Bulletin) Number
                               11, Contract Number GS-09P-02-KTC-
                               0002

03/25/05       A050094         Review of a Claim for Increased Costs:
                               Absher Construction Company, Seattle
                               U.S. Courthouse, Contract Number GS-
                               10P-01-LTC-0011




40 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number              Title                              Better Use         Costs



03/28/05   A050104    Review of Construction Management
                      Services Contract: Imperial Construction
                      Group, Inc., Solicitation Number GS-02P-
                      04-DTC-0048(N)

03/28/05   A050114    Review of Construction Management
                      Services Contract:      Gilbane Building
                      Company, Solicitation Number GS-02P-04-
                      DTC-0047(N)

03/31/05   A050091    Review of A/E Services Contract: Richard
                      McElhiney Architect LLC, Solicitation
                      Number GS-02P-04-DTC-0031

FSS Internal Audits
03/07/05   A040139    Review of Funding and Management
                      Controls over the Integrated Acquisition
                      Environment, Federal Asset Sales and E-
                      Travel E-Gov Initiatives

FSS Contract Audits
10/14/04   A040192    Preaward Review of Multiple Award
                      Schedule Contract Extension:          US
                      Investigations Services, Professional
                      Services Division, Incorporated, Contract
                      Number GS-07F-0385J

10/20/04   A040247    Attestation Review of Multiple Award
                      Schedule Contract: MTC Technologies,
                      Inc., Contract Number GS-23F-0041K

10/21/04   A040187    Preaward Review of Multiple Award
                      Schedule Contract Extension, October 1,
                      2004 Through September 30, 2009: CDI
                      Marine Company, Contract Number GS-
                      23F-0016K

10/26/04   A040206    Preaward Review of Multiple Award
                      Schedule Contract Extension: McNeely
                      Pigott and Fox, Contract Number GS-23F-
                      0072K, January 1, 2005 - December 31,
                      2009




                                                                       Office of Inspector General 41
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



10/26/04       A040228         Preaward Attestation Engagement Review
                               of Multiple Award Schedule Contract
                               Extension: Northrop Grumman Information
                               Technology, Contract Number GS-23F-
                               0008K

10/29/04       A040211         Preaward Review of Multiple Award
                               Schedule Contract Extension: Allsteel Inc.,
                               Contract Number GS-28F-0010J

11/01/04       A040248         Sales Data Analysis for Multiple Award
                               Schedule        Contract:     Motorola,
                               Incorporated, Contract Number GS-35F-
                               0004L for the Period August 1, 2003
                               Through July 31, 2004

11/03/04       A040221         Preaward Review of Multiple Award
                               Schedule Contract Extension: Firearms
                               Training Systems, Incorporated, Contract
                               Number GS-02F-0414D

11/10/04       A030200         Preaward Review of Multiple Award
                               Schedule Contract: Skillsoft Public Limited
                               Company, Contract Number GS-35F-0099J

11/16/04       A040243         Preaward Review of Multiple Award
                               Schedule Contract Extension: Everest VIT
                               Inc., Contract Number GS-24F-1308C

11/17/04       A040218         Preaward Review of Multiple Award
                               Schedule Contract Extension: Capitol
                               Furniture Distributing Co., Inc., Contract
                               Number GS-21F-0001K

11/18/04       A050001         Preaward Review of Multiple Award
                               Schedule Contract Extension: Gensym
                               Corporation, Contract Number GS-35F-
                               0190K

11/23/04       A040150         Preaward Review of Multiple Award
                               Schedule Contract Extension: Austin Info
                               Systems, Inc., Contract Number GS-35F-
                               0559J




42 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs



11/24/04   A040182   Review of Multiple Award Schedule                              $82,338
                     Contract Number GS-35F-0346J for the
                     Period April 1, 1999 Through February 29,
                     2004: Softmart Incorporated

12/06/04   A040242   Preaward Review of Multiple Award
                     Schedule Contract Extension: Olympus
                     America, Inc., Contract Number GS-24F-
                     1292C

12/15/04   A040232   Preaward Review of Multiple Award
                     Schedule Contract:    Electronic Data
                     Systems Corporation, Contract Number
                     GS-35F-0323J

12/15/04   A040258   Preaward Review of Multiple Award
                     Schedule Contract Extension: Jones &
                     Stokes Associates, Incorporated, Contract
                     Number GS-10F-0087K

12/17/04   A040217   Preaward Review of Multiple Award
                     Schedule Contract Extension: BAE
                     Systems Applied Technologies Inc.,
                     Contract Number GS-23F-0005K

12/21/04   A040253   Preaward Review of Multiple Award
                     Schedule Contract Extension:       Ortho-
                     Clinical Diagnostics, Contract Number GS-
                     24F-1243C

01/05/05   A040212   Preaward Review of Multiple Award
                     Schedule Contract Extension: ManTech
                     Advanced Systems International, Inc.,
                     Contract Number GS-23F-0122J

01/20/05   A040241   Preaward Review of Multiple Award
                     Schedule Contract Extension:     Nikon
                     Instruments, Inc., Contract Number GS-
                     24F-1333C

01/21/05   A040229   Preaward Review of Multiple Award
                     Schedule Contract Extension: DigitalNet
                     Government Solutions, LLC, Contract
                     Number GS-35F-0045K



                                                                      Office of Inspector General 43
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                   Title                               Better Use         Costs



01/25/05       A030050         Review of Multiple Award Schedule                               $256,736
                               Contract Number GS-07F-0127L for the
                               Period February 1, 2001 Through June 30,
                               2002: InPro Corporation

01/31/05       A050056         Preaward Review of Multiple Award
                               Schedule Contract Extension, January 31,
                               2005 Through January 30, 2010: Tybrin
                               Corporation, Contract Number GS-23F-
                               0109K

02/02/05       A050041         Preaward Review of Multiple Award
                               Schedule Contract Extension: Mine Safety
                               Appliances Company, Contract Number
                               GS-07F-0099K

02/03/05       A040203         Preaward Review of Multiple Award
                               Schedule Contract: Anteon Corporation,
                               Contract Number GS-23F-0076K

02/03/05       A050060         Preaward Review of Multiple Award
                               Schedule Contract Extension: Van Ru
                               Credit Corporation, Contract Number GS-
                               23F-0204K

02/15/05       A030242         Review of Multiple Award Schedule
                               Contract: Northrop Grumman Information
                               Technology, Inc., Contract Number GS-
                               35F-4340D

03/11/05       A050090         Preaward Review of Multiple Award
                               Schedule Contract Extension: McDowell
                               Research Corporation, Contract Number
                               GS-07F-0236K

03/14/05       A050065         Review of Multiple Award Schedule
                               Contract Number GS-07F-0293K for the
                               Interim Period January 1 to June 30, 2004:
                               CAL Inc.

03/17/05       A050103         Preaward Review of Multiple Award
                               Schedule Contract Extension: Television
                               Equipment Associates, Inc., Contract
                               Number GS-07F-0277K



44 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number              Title                               Better Use         Costs



03/18/05   A050058    Preaward Review of Multiple Award
                      Schedule Contract Extension: Kendro
                      Laboratory Products, Contract Number GS-
                      24F-1289C

03/29/05   A050061    Preaward Review of Multiple Award
                      Schedule Contract Extension:      Laurel
                      Consulting Group, Inc., Contract Number
                      GS-23F-0158K

FTS Internal Audits
12/09/04   A040096    Audit of Federal Technology Service’s
                      Client Support Center, New England
                      Region

12/09/04   A040117    Audit of Federal Technology Service’s
                      Client Support Center, Great Lakes Region

12/09/04   A040123    Audit of Federal Technology Service’s
                      Client Support Center, Northeast and
                      Caribbean Region

12/09/04   A040191    Audit of Federal Technology Service’s
                      Client Support Center, Northwest/Arctic
                      Region

12/09/04   A040191    Audit of Federal Technology Service’s
                      Controls and Testing of Those Controls for
                      the Heartland Region

12/09/04   A030205    Audit of Federal Technology Service’s
                      Client Support Center, Pacific Rim Region

12/09/04   A040130    Audit of Federal Technology Service’s
                      Client Support Center, Rocky Mountain
                      Region

12/09/04   A040102    Audit of Federal Technology Service’s
                      Client Support Center, National Capital
                      Region

12/09/04   A040126    Audit of Federal Technology Service’s
                      Client Support Center, Mid-Atlantic Region




                                                                        Office of Inspector General 45
                               Appendix II–Audit Report Register
                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs



12/09/04        A040191         Audit of Federal Technology Service’s
                                Controls and Testing of Those Controls for
                                the Southeast Sunbelt Region Client
                                Support Center

12/10/04        A040097         Audit of Federal Technology Service’s
                                Client Support Center, Greater Southwest
                                Region

03/28/05        A040132         Audit of FTS Working Capital/Reserve
                                Fund Levels

FTS Contract Audits
11/01/04        A040231         Postaward Review of Presubscribed                                  $168,676
                                Interexchange Carrier Charges: Sprint
                                Communications Company, L.P., Contract
                                Number GS00T99NSC0002

01/04/05        A040255         Review of Information Systems Support,                              $68,074
                                Inc.’s Billings for Task Order Number
                                GS10TR-00EBF-2546        Under   GSA
                                Contract Number GS-06K-97-BND-0710

Other Internal Audits
11/01/04        A030245         Review of the Planned Transformation of
                                the GSA Office of the Chief Financial
                                Officer

11/08/04        A040226         Report on Internal        Controls   Over
                                Performance Measures

11/15/04        A040239         Limited Audit of the Fiscal Year 2004
                                Federal Managers’ Financial Integrity Act
                                Section 2 and Section 4 Assurance
                                Statements

12/07/04        A040109         PricewaterhouseCoopers LLP Fiscal Year
                                2004 Information Technology Management
                                Letter

12/15/04        A040226         Audit of the Office of Citizen Services and
                                Communications’ Performance Measure:
                                “Tax Dollars Saved as a Result of Agencies
                                Sharing FirstGov Technologies”

46 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs




12/29/04   A040172   Review of Management Controls Over
                     GSA’s Centrally Billed Travel Card Account

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the
                     Comprehensive     Human   Resources
                     Integrated System

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of Pegasys

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of GSA
                     Advantage!

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the Region
                     6 PBS LAN

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the Region
                     6 FTS LAN

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the Region
                     6 FSS LAN

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the Region
                     6 CFO LAN

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the Federal
                     Procurement Data System - Next
                     Generation

01/11/05   A040179   FY 2004 Office of Inspector General
                     Information Security Review of the System
                     for Tracking and Administering Real
                     Property

02/10/05   A030160   Audit of GSA’s Continuity of Operations
                     Program




                                                                       Office of Inspector General 47
                               Appendix II–Audit Report Register
                                                                                  Financial
                                                                              Recommendations
                                                                          Funds to        Questioned
Date of        Audit                                                     Be Put to      (Unsupported)
Report         Number                   Title                            Better Use         Costs



02/11/05        A040113         Report on the Transfer of Funds to the
                                Department of Homeland Security for
                                Federal Protective Service Operations

Non-GSA Internal Audits
11/08/04        A040109         Report      on Applying Agreed-Upon
                                Procedures Re: FY 2004 Environmental
                                Liabilities

11/09/04        A040109         Report   on Applying     Agreed-Upon
                                Procedures    Re: FY     2004   Loss
                                Contingencies

Non-GSA Contract Audits
11/02/04        A040256         Preaward Attestation Engagement Review
                                of Del Amo Reimbursement Request:
                                Shell Oil Company

03/24/05        A050082         Preaward  Review   of      Del   Amo
                                Reimbursement Request:      Shell Oil
                                Company




48 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed



Date of        Audit
Report         Number                                           Title


03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

11/26/97       A22536          Postaward Audit of Multiple Award Schedule Contract:             Ingres Corporation,
                               Contract Number GS00K89AGS5589

02/05/98       A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                               Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                               CUC-0070(N)

03/19/98       A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                               Contract Number GS-07P-92-HUC-0017

05/27/98       A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                               Contract Number GS-00F-07010

06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H
                                                                                         Office of Inspector General 49
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


10/13/98        A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                                Number GS-02P-96-DTC-0033

02/05/99        A995113         Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                                Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99        A995128         Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                Morse Diesel International, Inc., Contract Number GS06P95GZC0501

06/08/99        A995192         Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                                1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                                Number GS-26F-1018B

06/15/99        A42113          Postaward Audit of Multiple Award Schedule Contract:         Herman Miller Inc.,
                                Contract Number GS-00F-07000

06/24/99        A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                GS-02P-95-DTC-0041(N)

07/07/99        A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                                Number GS-02P-95-DTC-0041(N)

10/13/99        A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

03/29/00        A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                                March 8, 1991 Through February 29, 1996

03/29/00        A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                                Period March 1, 1996 Through April 30, 1998

04/25/00        A000975         Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                                Contract Number GS-14F-0193D

06/01/00        A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                Triangle Project


50 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                     Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                     0322J

01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.

05/11/01   A010128   Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                     J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01   A010160   Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                     Number 2PCB-CM-010174

05/31/01   A010118   Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                     Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                     98-KTC-0020

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088



                                                                            Office of Inspector General 51
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


09/17/01        A010221         Preaward Audit of Multiple Award Schedule Contract: Konica Business
                                Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01        A010253         Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                                Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                                April 30, 2005

10/18/01        A63630          Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                March 31, 1996

10/31/01        A010265         Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                                Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

12/18/01        A001123         Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                                Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                                April 30, 1991

01/11/02        A010281         Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/17/02        A010247         Preaward Audit of Multiple Award Schedule Contract: Cummings-Allison
                                Corporation, Solicitation Number FCGE-C1-00-0001-B

02/20/02        A010138         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/03/02        A010263         Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                                Company, Contract Number GS-02P-95-DTC-0014

04/11/02        A60648          Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                                Numbers GS-00F-3918A & GS-00F-3919A

04/18/02        A010248         Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02        A010262         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02        A020101         Preaward Audit of a Claim, Additional Change Items: Turner Construction
                                Company, Contract Number GS-02P-95-DTC-0014

05/16/02        A020115         Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                                Contract Number GS-11P-99-MAC-0006

05/17/02        A020125         Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                                02P-98-DTC-0056N

52 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N

05/29/02   A020109   Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/06/02   A020132   Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                     97-GBC-0011

06/06/02   A020141   Audit of Claim for Increased Costs: The Albert M. Higley Co., Subcontractor to Dick
                     Corporation, Contract Number GS-05P-97-GBC-0011

06/06/02   A020142   Audit of Claim for Increased Costs: Mohawk Re-Bar Services, Inc., Subcontractor
                     to Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/12/02   A020097   Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02   A010239   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

07/16/02   A020191   Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                     Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02   A020086   Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/07/02   A020173   Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                     P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM

09/04/02   A020180   Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                     Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02   A020196   Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                     Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02   A020201   Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02   A020178   Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                     GSA Contract Number GS-35F-0004L


                                                                            Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


10/02/02        A020200         Audit of Termination Claim: Herman B. Taylor Construction Company, Contract
                                Number GS-07P-92-HUC-017

11/14/02        A020223         Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                                GS-09P-95-KTC-0032

11/22/02        A020224         Preaward Audit of a Claim for Increased Costs: Commonwealth Electric Company,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

12/23/02        A020176         Preaward Audit of a Claim for Increased Costs: Vetro, Inc., Contract Number GS-
                                09P-97-KTC-0008

01/03/03        A020242         Preaward Audit of Cost and Pricing Data: Stronghold Engineering, Inc., Solicitation
                                Number GS-09P-02-KTC-0069

01/07/03        A020192         Preaward Audit of a Claim for Increased Costs: Swinerton Builders, Evo A.
                                Deconcini U.S. Courthouse & Federal Building, Tucson, Arizona, Contract Number
                                GS-09P-97-KTC-0008

01/22/03        A020233         Preaward Audit of a Claim for Increased Costs: Sun Mechanical Contracting, Inc.,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

01/30/03        A020248         Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                                05P-99-GBC-0012

02/06/03        A995169         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Viking
                                Acoustical Corporation, Contract Number GS-00F-5004A

02/07/03        A020238         Preaward Audit of a Claim for Increased Costs: Standard Drywall, Inc.,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

02/12/03        A030081         Preaward Audit of a Claim for Increased Costs: Hardrock Concrete Placement
                                Company, Inc., Subcontractor to Swinerton Builders, Evo A. Deconcini U.S.
                                Courthouse & Federal Building, Tucson, Arizona, Contract Number GS-09P-97-
                                KTC-0008

02/20/03        A020217         Preaward Audit of Sole Source Contract: NEEKO Construction, Inc., Solicitation
                                Number GS-11P-02-ZGC-0218 “NEG” 8(A)

03/14/03        A020197         Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

54 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


03/20/03   A020251   Audit of Claim for Increased Costs: The Cleveland Marble Mosaic Company,
                     Contract Number GS-05P-99-GBC-0043

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/06/03   A030142   Preaward Audit of Construction Management Services Contract: Gilbane Building
                     Company, Solicitation Number GS-02P-02-DTC-0031N

05/19/03   A030092   Preaward Audit of a Termination Settlement Proposal: L&H Construction Co., Inc.,
                     Contract Number GS-02P-99-DTC-0013

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C.E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03   A030088   Preaward Audit of a Termination Settlement Proposal: Imperial Construction
                     Group, Inc., Contract Number GS-02P-01-PCU-0036

06/02/03   A030138   Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                     Number GS-05P-96-GBC-0015

07/02/03   A030163   Preaward Audit of Multiple Award Schedule Contract Extension: Information
                     Network Systems, Inc., Contract Number GS-35F-5002H

08/08/03   A030177   Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                     MYD-0015

08/15/03   A030222   Preaward Audit of Architect and Engineering Services Contract: The Lukmire
                     Partnership, Inc., Solicitation Number GS-11P-02-MAD-0177

08/28/03   A030199   Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                     97-GBC-0011

09/23/03   A030236   Preaward Audit of Architect and Engineering Services Contract: Atkinson Koven
                     Feinberg Engineers, LLP, Consultant to Perkins Eastman Architects, PC,
                     Solicitation Number GS-02P-03-DTD-0008(N)

09/29/03   A030152   Preaward Audit of a Claim: J.A. Jones Construction Group, LLC, Contract Number
                     GS-02P-99-DTC-0006

                                                                          Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


09/30/03        A030264         Preaward Audit of Cost and Pricing Data: Kelly’s Cleaning Services, Inc.,
                                Solicitation Number GS-02P-03-PIC-0028

10/01/03        A030229         Preaward Audit of Multiple Award Schedule Contract Extension: Viecore FSD, Inc.,
                                Contract Number GS-35F-0072J

10/09/03        A030247         Preaward Audit of Architect and Engineering Design Services Contract: Syska
                                Hennessy Group, Inc., Solicitation Number GS11P02MKC0057

10/09/03        A030248         Preaward Audit of Architect and Engineering Design Services Contract: STUDIOS
                                Architecture, Solicitation Number GS11P02MKC0057

10/09/03        A030250         Preaward Audit of Architect and Engineering Design Services Contract: Thorton-
                                Tomasetti-Cutts LLC, Solicitation Number GS11P02MKC0057

10/09/03        A030244         Preaward Audit of Architect and Engineering Design Services Contract: Shalom
                                Baranes Associates, Solicitation Number GS11P02MKC0057

10/16/03        A030225         Preaward Audit of Claim: AMEC Construction Management, Inc., Contract Number
                                GS-11P96MKC0015

10/29/03        A030156         Preaward Audit of Multiple Award Schedule Contract: R.S. Information Systems,
                                Inc., Solicitation Number FCIS-JB-980001-B

10/29/03        A030181         Limited Scope Postaward Audit of Multiple Award Schedule Contract: R.S.
                                Information Systems, Inc., Contract Number GS-35F-5355H

11/04/03        A030261         Preaward Audit of Architect and Engineering Services Contract: Perkins Eastman
                                Architects, P.C., Solicitation Number GS-02P-03-DTD-0008(N)

11/20/03        A040054         Preaward Audit of Multiple Award Schedule Contract: The Public Strategies Group,
                                Inc., Contract Number GS-10F-0023J

12/05/03        A030241         Audit of Claim for Increased Costs: BPI Mechanical, Inc., Subcontractor to AMEC
                                Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

12/12/03        A040087         Preaward Audit of Architect and Engineering Services Contract: Holabird and Root,
                                LLC, Contract Number GS11P03MKC0037

12/17/03        A030168         Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                                Solicitation Number FCIS-JB-980001B

12/17/03        A040001         Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                                Incorporated, Solicitation Number FCIS-JB-980001B

12/31/03        A030172         Preaward Audit of a Claim: Cord Contracting Co., Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)


56 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


12/31/03   A030215   Preaward Audit of a Claim: A&L Construction Corporation, Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/12/04   A040067   Audit of Claim for Increased Costs: C.J. Coakley Co., Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

01/12/04   A040098   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

01/13/04   A030265   Interim Audit of Multiple Award Schedule Contract: BearingPoint, LLC, Contract
                     GS-23F-9796H

01/15/04   A030155   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/16/04   A030234   Preaward Audit of a Claim: KSW Mechanical Services, Inc., Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/29/04   A030223   Preaward Audit of Claim: John J. Kirlin, Inc., Subcontractor to AMEC Construction
                     Management, Inc., Contract Number GS-11P96MKC0015

02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

02/25/04   A040049   Attestation Review of Preaward Multiple Award Schedule Contract:            EG&G
                     Technical Services, Inc., Contract Number GS-35F-5927H

03/01/04   A030259   Preaward Audit of a Claim: Airflex Industrial Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/02/04   A040004   Preaward Attestation Engagement Review of Multiple Award Schedule Contract
                     Extension: Black Box Corporation, Contract Number GS-35F-0158J

03/05/04   A040129   Preaward Audit of Architect/Engineering Proposal: Weinstein Architects and Urban
                     Designers, Solicitation Number GS-10P-04-LTC-0009

03/09/04   A040162   Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                     September 30, 2006

03/09/04   A030186   Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                     Through October 31, 2003

03/12/04   A040082   Preaward Attestation Engagement Review of Multiple Award Schedule Contract
                     Extension: ITT Industries, Inc., Advanced Engineering & Sciences Division,
                     Contract Number GS-35F-0109J


                                                                           Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


03/16/04        A040107         Attestation Review of Architect and Engineering Services Contract: DBI Architects,
                                P.C., Contract Number GS11P02ZGD0206

03/19/04        A040105         Attestation Engagement Review of Multiple Award Schedule Contract: Rhombic
                                Systems, Inc., Contract Number GS-35F-0461J

03/23/04        A030191         Preaward Audit of a Claim: Five Star Electric Corp., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/24/04        A040128         Preaward Attestation Review of Multiple Award Schedule Contract: 3H Technology,
                                LLC, Solicitation Number FCIS-JB-980001B

03/31/04        A030230         Preaward Attestation Review of a Claim: Singleton Electric Company, Inc., a
                                Subcontractor to AMEC Construction Management, Inc., Contract Number GS-
                                11P-96-MKC-0015




58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                         Projected Final
Report     Number                                   Title                                 Action Date


Internal Audits
03/27/01   A000968   Review of Operating Equipment Inventories: Public Buildings               05/15/05
                     Service, New England Region

05/29/01   A001012   PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and                   10/15/05
                     Year-End Management Letters

02/07/02   A010187   EDP Management Letter FY 2001 Financial Statement Audit                   06/15/05

05/10/02   A010187   Audit of the General Services Administration’s Fiscal Years 2001          10/15/05
                     and 2000 Financial Statements

09/30/02   A020056   Audit of Controls Over Reimbursable Work Authorizations Billing           06/15/05
                     Practices in the Greater Southwest Region

03/18/03   A020161   Audit of the Consolidation of Distribution Center Operations:             06/15/05
                     Impact on Shipment Costs & Delivery Times

03/18/03   A020163   Audit of the General Services Administration’s Fiscal Years 2002             Open
                     and 2001 Financial Statements

12/19/03   A030110   PricewaterhouseCoopers,       LLP      Fiscal   Year   2003   EDP      Suspended
                     Management Letter

12/31/03   A030080   Review of PBS Portfolio Restructuring Initiative                          10/15/05

01/08/04   A020144   Audit of Federal Technology Service’s Client Support Centers              05/15/05

02/10/04   A030104   Audit of PBS Lease Oversight Practices                                    06/15/05

03/15/04   A020203   Review of GSA’s Process for Establishing Lodging Per Diems                10/15/05

03/25/04   A030147   Audit of FSS’s Acquisition Workforce Qualifications                       06/15/05

03/30/04   A020246   Audit of the GSA.gov Web Portal                                           04/15/05

03/31/04   A030110   Audit of the General Services Administration’s Fiscal Years 2003          10/15/05
                     and 2002 Financial Statements




                                                                              Office of Inspector General 59
                                  Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                • The Profit Recovery Group, through a contract
                                                             arrangement with GSA, continues to actively review
Collection                                                   and pursue overpayments in conjunction within our
During the period October 1, 2004 through March 31,          PBS and FTS Accounts Payable Division associates.
2005, the following activities were undertaken by GSA
in an effort to improve debt collection and reduce the     • Treasury debt collection contractors are using the
amount of debt written off as uncollectible.                 Administrative Wage Garnishment (AWG) tool to
                                                             collect GSA claims; however, the debtors are filing
• From October 1, 2004 to March 31, 2005, the GSA
  Finance Centers referred approximately $1.5 million        AWG hearing requests with GSA’s Board of Contract
  of delinquent non-Federal claims to the U.S.               Appeals. Because the Board had decided against
  Treasury Department (Treasury) for cross-servicing         GSA on several of these AWG appeals, a confer-
  collection activities. Collections on non-Federal          ence call with judges from GSA’s Board of Contract
  claims exceeded $69.4 million. Administrative              Appeals, GSA attorneys and representatives from
  offsets have resulted in additional collections of         the Fleet Accident Center, Personal Property Sales
  $9.1 million. GSA also collects non-Federal claims         (PPS) and the National Payroll Center located in the
  using Pre-Authorized Debits (PADs). From                   Heartland Finance Center was held on March 16,
  October 1, 2004 to March 31, 2005, 78 PADs                 2005 to discuss AWGs associated with GSA claims
  totaling $100,533 were processed.                          submitted by Treasury for collection.

• To comply with the Debt Collection Improvement Act         The call helped clarify:
  of 1996, GSA transmits delinquent claims each
  month to the Treasury Financial Management                 1. What steps should be taken to improve use of the
  Service (FMS) for collection cross-servicing.              AWG tool by Treasury collection contractors.

• Persistent claims coordination between regional            2. Who at GSA should respond to the Board for the
  contracting officers, Treasury, and our Finance            AWG hearings.
  Centers continues to strengthen our claims
  collection efforts. These efforts include exchanging       3. Which GSA Counsel office should represent GSA
  necessary information to further the collection            in the hearings.
  process, such as clarifying the status and circum-
  stances which initiated the claim, notification of         4. What documentation and/or chronology of events
  bankruptcy actions, and obtaining additional               leading to the debt is needed to substantiate the
  documentation to support the claim.                        debt.

• In accordance with OMB Circular A-129, we                  5. Legal statements to certify GSA is allowed to
  continue to write off uncollected claims aged over         recover the money owed.
  two years old. However, written-off claims due from
  debtors for which Treasury has a taxpayer identifica-      6. PPS contracting officers’ responsibility to give the
  tion number or social security number remain in            debtors their rights under the Contract Disputes Act
  Treasury’s Off-set Program (TOP) for up to ten years       before liquidated damage claims are submitted for
  and can be collected.                                      collection.




60 Semiannual Report to the Congress
                                  Appendix IV–Delinquent Debts




  Clarification of the above should improve GSA’s abil-         offices. These old bills were not being paid because
  ity to substantiate its claims and its right to collect       either GSA no longer has the supporting backup, or
  them. It will also help Board judges meet strict time         the DC Government no longer has the funding. We
  frames for rendering decisions and reduce time and            have not written these bills off because the DC CFO
  resources spent on pursuing debts when it is not              has agreed to request funding to pay GSA for these
  cost beneficial to do so.                                     bills.

• As of March 7, 2005, the District of Columbia (DC)        • On March 15, 2005, we received the first payment
  Government owed GSA $423,996 for 38 supply bills            from the U.S. District Court for a credit card fraud
  over two years old. This is an increase from the            case against an individual. The total amount of resti-
  $347,228 they owed as of September 30, 2004. A              tution to be paid to GSA is $12,617. The Department
  spreadsheet of all outstanding supply bills is sent         of Justice Financial Litigation Unit will notify the
  monthly to the DC Chief Financial Officer (CFO)             debtor’s parole officer if there is any failure to pay.




Non-Federal Accounts Receivable

                                                    As of                   As of
                                                October 1, 2004         March 31, 2005            Difference*

  Total Amounts Due GSA                           $12,205,959            $90,519,793              $78,313,834

  Amounts Delinquent                               $7,729,531            $76,277,959              $68,548,428

  Total Amount Written
  Off as Uncollectible
  Between 10/1/04 and
  3/31/05                                            $460,526

  *The large increase in the differences between October 1, 2004 and March 31, 2005 is due to using
   incorrect amounts in previous reports from the Greater Southwest Finance Center.




                                                                                         Office of Inspector General 61
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .24

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..38

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .49




62 Semiannual Report to the Congress
                          Appendix VI–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Daniel R. Levinson (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


Office of Counsel to the Inspector General
Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


Office of Internal Evaluation
Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


Office of Audits
Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

Principal Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . .(202) 501-0374


Programmatic Audit Office Deputy Assistant Inspectors General for Auditing (DAIGs)
Finance & Staff Offices Audit Office, DAIG Kristin R. Wilson (JA-F) . . . . . . . . . . . . . . . . . .(202) 501-0006

Information Technology Audit Office, DAIG Gwendolyn A. McGowan (JA-T) . . . . . . . . . . .(703) 308-1223

Acquisition Programs Audit Office, DAIG Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . .(703) 603-0189
Real Property Audit Office, DAIG Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


Regional Inspectors General for Auditing (RIGAs)
National Capital Region Field Office, RIGA Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . .(202) 708-5340

New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . . .(212) 264-8620

Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

Southeast Sunbelt Field Office, RIGA James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




                                                                                                           Office of Inspector General 63
                           Appendix VI–OIG Offices and Key Officials



  Regional Inspectors General for Auditing (RIGAs) continued
  The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

  Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . .(817) 978-2572

  Pacific Rim Field Office, RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

    Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


  Office of Investigations
  Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

  Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . . .(202) 501-1397


  Regional Inspectors General for Investigations (RIGIs)
  Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

     Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . . .(215) 446-4830

  New York Zone Office, RIGI Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

     Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . . .(617) 565-6820

  Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

     Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . . .(816) 926-7214

  Fort Worth Zone Office, RIGI Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

    Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

  San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

    Auburn Sub-Office, Assistant RIGI Agent Terry J. Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . .(253) 931-7654


  Office of Administration
  Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

     Human Resources Division, Director Vacant (JPH) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0360

     Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134

    Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




64 Semiannual Report to the Congress
Notes




        Office of Inspector General 65
                                       Notes




66 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
